APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(February 24, 2020) . . . . . . . . . . . App. 1
Appendix B Opinion in the United States Court of
Appeals for the Ninth Circuit
(July 19, 2018). . . . . . . . . . . . . . . App. 52
Appendix C Order in the United States District
Court for the District of Nevada
(August 26, 2016) . . . . . . . . . . . . App. 95
Appendix D Judgment in the United States
District Court for the District of Nevada
(August 29, 2016) . . . . . . . . . . . App. 108

App. 1

APPENDIX A

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Case No. 2:14-cv-01527-JCM-PAL
[Filed February 24, 2020]
____________________________________
)
RONALD ROSS,
)
Petitioner-Appellant,
)
)
v.
)
)
WILLIAMS, Warden; ATTORNEY
)
GENERAL FOR THE STATE OF
)
NEVADA,
)
)
Respondents-Appellees.
)
____________________________________ )
OPINION
Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
Argued and Submitted En Banc June 19, 2019
San Francisco, California

App. 2
Before: Sidney R. Thomas, Chief Judge, and William
A. Fletcher, Ronald M. Gould, Richard A. Paez,
Marsha S. Berzon, Consuelo M. Callahan, Milan D.
Smith, Jr., Sandra S. Ikuta, Jacqueline H. Nguyen,
Paul J. Watford and Michelle T. Friedland, Circuit
Judges.
Opinion by Judge Friedland;
Dissent by Judge Ikuta
_________________________________________
SUMMARY*
_________________________________________
Habeas Corpus
The en banc court reversed the district court’s
judgment dismissing as untimely Ronald Ross’s
amended habeas corpus petition challenging his
Nevada state conviction for theft-related offenses, and
remanded.
Proceeding pro se, Ross timely filed a habeas
petition in the district court. Using a court-provided
form, he asserted eight claims of ineffective assistance
of counsel. He also attached an order from the Nevada
Supreme Court affirming the denial of his state
petition for postconviction relief. After AEDPA’s oneyear statute of limitations had expired, Ross filed with
counsel’s assistance an amended petition that included
multiple claims, some of which resembled those
identified in Ross’s original pro se federal petition and
discussed in the attached state court order. Dismissing
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
the amended petition as untimely, the district court
rejected Ross’s argument that its claims related back to
the original, timely petition.
Explaining that Federal Rules of Civil Procedure
15(c)(1)(B) and 10(c) apply in habeas proceedings, the
en banc court held that if a petitioner attempts to set
out habeas claims by identifying specific grounds for
relief in an original petition and attaching a court
decision that provides greater detail about the facts
supporting those claims, that petition can support an
amended petition’s relation back. The en banc court
held that the exhibit containing the Nevada Supreme
Court order was a part of the original petition for all
purposes under Rule 10(c), and that the original
petition therefore set out or attempted to set out
conduct, transactions, or occurrences to which claims in
the amended petition could relate back under Rule
15(c)(1)(B).
The en banc court wrote that the central question is
whether the amended and original petitions share a
common core of operative facts, as those facts are laid
out in the amended petition and “attempted to be set
out” in the original petition; and that if an exhibit to
the original petition includes facts unrelated to the
grounds for relief asserted in that petition, those facts
were not “attempted to be set out” in that petition and
cannot form a basis for relation back. Applying this
framework, the en banc court wrote that Ross’s
amended petition and his original petition with the
attached exhibit share a common core of operative
facts— for example, defense counsel’s purported failure

App. 4
to object to the state witness’s distraction theft
testimony–such that the amended petition relates back.
The en banc court rejected arguments (1) that the
Nevada Supreme Court order is not a “written
instrument” within the meaning of Rule 10(c) so it
should not be considered part of Ross’s petition and
cannot provide facts to which the amended petition
could relate back, and (2) that a petition can only
incorporate an attachment by clearly and repeatedly
referencing it. The en banc court wrote that a petition
need not be pleaded with sufficient particularity to
support relation back. Observing that Habeas Rule
2(c)’s particularity requirement applies to pleading, the
en banc court explained that the requirements of
relation back are explicitly more generous. The en banc
court saw no basis to conclude that, in general,
allowing a petitioner to incorporate facts from
attachments into his petition for relation back purposes
will saddle district courts with a greater volume of
documents to review than the Habeas Rules expressly
contemplate.
The en banc court remanded for the district court to
consider which of the claims in the amended petition
(beyond the claim regarding the failure to object to
expert testimony) are supported by facts in the original
petition.
Judge Ikuta, joined by Judges Callahan and M.
Smith, dissented. She wrote that the majority’s
interpretation of Rule 10(c) in the habeas context—to
mean that the facts contained in “a written instrument
that is an exhibit to a” habeas petition are “part of the
pleading for all purposes” but only to the extent the

App. 5
facts are arguably related to the petition’s grounds for
relief—is unworkably broad and complex, inconsistent
with the Habeas Rules, AEDPA’s statute of limitations,
and the Supreme Court’s guidance on applying Rule
10(c) in this context.
__________________________________________________
COUNSEL
Jonathan M. Kirshbaum (argued), Assistant Federal
Public Defender; Rene L. Valladares, Federal Public
Defender; Office of the Federal Public Defender, Las
Vegas, Nevada; for Petitioner-Appellant.
Jeffrey M. Conner (argued), Assistant Solicitor
General; Matthew S. Johnson, Deputy Attorney
General; Adam Paul Laxalt, Attorney General; Office
of the Attorney General, Carson City, Nevada; for
Respondents-Appellees.
David M. Porter, Chair, NADCL Amicus Committee,
Sacramento, California; Gabriel J. Chin, University of
California, Davis School of Law, Davis, California; for
Amici Curiae National Association of Criminal Defense
Lawyers and Aoki Center for Critical Race and Nation
Studies.
__________________________________________________
OPINION
FRIEDLAND, Circuit Judge:
Ronald Ross, proceeding pro se, timely filed a
habeas petition in the United States District Court for
the District of Nevada. Using a court-provided form for

App. 6
habeas petitions, he asserted eight claims of ineffective
assistance of counsel based on specific alleged
deficiencies in his trial counsel’s performance. Ross’s
statements on the form petition contained a short
description of each claim. Ross also attached a six-page
order from the Nevada Supreme Court affirming the
denial of his state petition for postconviction relief.
That order summarized the factual basis for most of
the claims Ross had raised in his state petition, many
of which were the same as those raised in his federal
petition.
The district court appointed Ross counsel. Some
months later, after the one-year statute of limitations
under the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”), 28 U.S.C. § 2244(d)(1), had
expired, Ross filed an amended petition with counsel’s
assistance. The amended petition included multiple
claims, some of which resembled those that were
identified in Ross’s original pro se federal petition and
discussed in the attached state court order. The district
court dismissed Ross’s amended petition as untimely,
rejecting Ross’s argument that its claims related back
to his original, timely petition.
A divided three-judge panel affirmed the district
court’s dismissal. Ross v. Williams, 896 F.3d 958,
972–73 (9th Cir. 2018). We granted rehearing en banc,
Ross v. Williams, 920 F.3d 1222, 1223 (9th Cir. 2019),
and now reverse.
I
Following his conviction for several theft-related
offenses in Nevada state court, Ronald Ross was

App. 7
sentenced under Nevada’s habitual offender statute to
life in prison with a possibility of parole after twenty
years. Ross appealed, and the Nevada Supreme Court
affirmed his conviction and sentence on November 8,
2010. Ross did not file a petition for a writ of certiorari
with the United States Supreme Court.
On November 30, 2011, Ross petitioned for
postconviction relief in Nevada state district court,
asserting among other things various claims of
ineffective assistance of trial counsel. That court denied
relief.
The Nevada Supreme Court affirmed on July 22,
2014, explaining its decision in a six-page written
order. That order enumerated Ross’s claims that his
trial counsel was ineffective for:
(A) “failing to engage in pretrial discovery,”
which would have enabled counsel to obtain
a surveillance video;
(B) “violating [Ross’s] right to a speedy trial”;
(C) allowing “acommunication breakdown
[that] prevented [Ross] from being able to
assist counsel in the preparation of his
defense”;
(D) “failing to object to expert testimony
pertaining to pickpockets and distraction
thefts”;
(E) “failing to retain a defense expert to rebut
the expert testimony” about pickpockets and
distraction thefts;

App. 8
(F) “failing to properly challenge the use of a
preliminary-hearing transcript in lieu of live
testimony” or to “mak[e] an offer of proof as
to what additional questions counsel would
have posed to a live trial witness”;
(G) “failing to renew at trial [Ross’s]
preliminary-hearing objection” concerning
testimony about a surveillance video on the
grounds that the testimony “violat[ed] the
best evidence rule”; and
(H) “failing to raise certain objections during
the State’s closing arguments and at
sentencing and . . . failing to move postverdict to dismiss the case for lack of
evidence.”1
In the course of rejecting those claims, the order
discussed the facts underlying most of them.
On September 14, 2014, Ross filed a pro se federal
habeas petition in the District of Nevada using the
district’s standard petition form. In relevant part, Ross
listed his Sixth Amendment right to counsel as the
constitutional basis for his claims. Where the form
inquired about the facts on which he based those
claims, Ross provided a list of alleged deficiencies in his
trial counsel’s performance. The list stated that trial
1

For ease of reference, we have adopted different labeling systems
to identify the claims in each of the documents at issue. We denote
claims addressed in the Nevada Supreme Court postconviction
order as Claims A–H, claims included in the original federal
petition as Claims 1–8, and claims included in the amended federal
petition as Claims I–XI.

App. 9
counsel (1) “failed to secure a speedy trial”; (2) “failed
to review evidence prior to trial and adequately
prepare”; (3) “failed to file pretrial motions”; (4) “failed
to address the prejudice of evidence lost prior to trial”;
(5) “failed to prepare for . . . jury selection” because
counsel “attempted to force a deal”; (6) “failed to
prepare for . . . trial,” again because counsel “attempted
to force a deal”; (7) “failed to retain defense experts
for . . . trial”; and (8) “failed to object to the State’s use
of [an] expert witness.”
Although Ross did not include any further facts on
the petition form, he appended an affidavit stating,
among other things, that the Nevada Supreme Court
had affirmed the denial of his state postconviction
relief petition. The affidavit included a notation to “see
attached order.” Ross then attached that order as
exhibit “A.” On the same day, he also filed a
handwritten “request” in which he asked the court to
provisionally file the petition, give him leave to amend,
and appoint counsel. The request stated that
“Petitioner incorporates by reference and fact, the
attached Affidavit in support of this motion, and writ,
with attached exhibits.”
The district court reviewed the petition and
appointed counsel to assist Ross. It set a deadline for
the filing of any amended petition and stated that no
response by the State would be required absent further
court order. Following extensions of this filing deadline
and with the assistance of newly appointed counsel,
Ross filed an amended habeas petition on June 8, 2015,
asserting eleven claims. Eight were claims for
ineffective assistance of counsel, alleging that Ross’s

App. 10
trial counsel: (I) failed to protect Ross’s right to a
speedy trial; (II) failed to communicate with Ross prior
to trial; (III) failed to seek an appropriate sanction
based on a discovery violation; (IV) failed to object
based on the best evidence rule; (V) failed to object to
expert testimony; (VI) failed to call a defense expert;
(VII) failed to object to the admission of preliminary
hearing testimony based on the State’s inability to
establish the witness’s unavailability; and (VIII) failed
to raise mitigating arguments at sentencing against
the imposition of a habitual offender sentence. The
remainder alleged: (IX) violation of the Confrontation
Clause; (X) violation of the right to a speedy trial; and
(XI) deprivation of due process based on legally
insufficient evidence.
The district court reviewed the amended petition
and directed the State to file a response. The State
moved to dismiss, arguing in relevant part that the
amended petition was untimely. The State highlighted
that the amended petition was filed after AEDPA’s oneyear statute of limitations had run, and the State
contended that the amended petition’s claims did not
relate back to Ross’s concededly timely original federal
petition because the original petition lacked factual
allegations. Ross opposed dismissal, arguing that his
amended petition related back because the Nevada
Supreme Court order he had attached to his original
federal petition included the necessary facts. The
district court granted the State’s motion and entered
an order of dismissal. The court reasoned that Ross had
included no facts in his original form petition and had
not referred to the attached state court order
sufficiently for the facts therein to be considered

App. 11
incorporated by reference, so there was nothing to
which the amended petition could relate back.
Ross timely appealed.
II
As relevant to this case, AEDPA requires that an
individual seeking habeas relief from a state criminal
judgment file a petition in federal court within one year
of “the date on which the judgment became final by the
conclusion of direct review or the expiration of the time
for seeking such review.” 28 U.S.C. § 2244(d)(1)(A).
This statute of limitations is tolled during the pendency
of state postconviction proceedings. 28 U.S.C.
§ 2244(d)(2). As the parties agree, Ross’s September 14,
2014 original petition fell within the limitations period,
while his June 8, 2015 amended petition did not.2 The
claims raised in the amended petition are therefore
untimely unless they relate back to Ross’s original
petition.
Under Rule 15(c)(1)(B) of the Federal Rules of Civil
Procedure, an otherwise untimely amended pleading
“relates back to the date of the original pleading
when . . . the amendment asserts a claim or defense
2

Ross’s limitations period began to run on February 7, 2011, the
deadline for him to seek United States Supreme Court review of
the Nevada Supreme Court’s decision affirming his judgment of
conviction. The limitations period then ran for 296 days. It was
tolled from November 30, 2011 to August 18, 2014 during the
pendency of Ross’s state postconviction proceedings. When those
proceedings concluded, the limitations period began to run again.
Because 296 of the 365 days to file had already passed, the AEDPA
deadline was the first business day that was at least 69 days later:
October 27, 2014.

App. 12
that arose out of the conduct, transaction, or occurrence
set out—or attempted to be set out—in the original
pleading.” Federal Rule of Civil Procedure 10(c)
provides that “[a] statement in a pleading may be
adopted by reference elsewhere in the same pleading or
in any other pleading or motion” and that “[a] copy of
a written instrument that is an exhibit to a pleading is
a part of the pleading for all purposes.”
Relying on these rules, Ross argues that the exhibit
containing the Nevada Supreme Court order was “a
part of [his original petition] for all purposes,” and that
the original petition therefore “set out” or “attempted
to . . . set out” conduct, transactions, or occurrences to
which claims in his amended petition could relate back.
Fed. R. Civ. P. 10(c); Fed. R. Civ. P. 15(c)(1)(B). We
agree.
A
Federal Rules of Civil Procedure 15(c)(1)(B) and
10(c) apply in habeas proceedings. Under provisions of
both the Federal Rules of Civil Procedure and the Rules
Governing Section 2254 Cases in the United States
District Courts (the “Habeas Rules”), the Federal Rules
of Civil Procedure apply to habeas proceedings to the
extent they are consistent with the Habeas Rules,
federal statutory provisions, and habeas practice. See
Fed. R. Civ. P. 81(a)(4); Habeas R. 12. An additional
statutory provision specifically incorporates Federal
Rule of Civil Procedure 15 into habeas procedure. See
28 U.S.C. § 2242 (“[An] [a]pplication for a writ of
habeas corpus . . . . may be amended or supplemented
as provided in the rules of procedure applicable to civil
actions.”). We refer to Federal Rule of Civil Procedure

App. 13
81(a)(4), Habeas Rule 12, and Section 2242 collectively
herein as the “Habeas Incorporation Provisions.”
Relying on the Habeas Incorporation Provisions, the
Supreme Court has applied both Rule 15(c) and Rule
10(c) to habeas proceedings. In Mayle v. Felix, 545 U.S.
644 (2005), the Supreme Court considered whether an
amended habeas petition related back to an original
petition under Rule 15(c).3 Id. at 649, 656–64. In
applying Rule 15(c) in habeas cases, some courts of
appeals had treated an entire trial, conviction, or
sentence as a “transaction” or “occurrence” to which an
amended petition could relate back. See id. at 653–54,
656–57. The Court explained that this approach
misinterpreted Rule 15(c): An amended petition “does
not relate back . . . when it asserts a new ground for
relief supported by facts that differ in both time and
type from those the original pleading set forth.” Id. at
650. Instead, the Court held, both petitions must “state
claims that are tied to a common core of operative
facts.” Id. at 664.
In Dye v. Hofbauer, 546 U.S. 1 (2005) (per curiam),
the Supreme Court held that, under Rule 10(c), a
habeas petitioner could rely on a brief appended to his
petition to plead his petition with sufficient
particularity. Id. at 4. The habeas petition at issue
asserted a claim of prosecutorial misconduct. See id. at
3

Mayle relied on then-applicable provisions of the Habeas Rules
and Federal Rules of Civil Procedure. See Habeas R. 11 (2004);
Fed. R. Civ. P. 81(a)(2) (2004); Fed. R. Civ. P. 15(c)(2) (2004).
Although these provisions have since been renumbered and in
some instances revised, they remain identical or functionally
equivalent to the provisions on which Mayle relied. See Fed. R. Civ.
P. 81(a)(4); Habeas R. 12; Fed. R. Civ. P. 15(c)(1)(B).

App. 14
2–3. In support, the petitioner attached a brief to his
habeas petition, which articulated that claim in more
detail. See id. at 3–4. The petition made repeated
references to the brief. Id. at 4. The Supreme Court
treated the brief as part of the petition under Rule
10(c), and accordingly deemed the petition to properly
present the prosecutorial misconduct claim regardless
of whether, without the attachment, the petition might
have been construed as presenting the claim “in too
vague and general a form.” Id.
B
The foregoing authorities make plain that relation
back is available under the circumstances presented
here. If a petitioner attempts to set out habeas claims
by identifying specific grounds for relief in an original
petition and attaching a court decision that provides
greater detail about the facts supporting those claims,
that petition can support an amended petition’s
relation back.4 An amended petition relates back if it
asserts one or more claims that arise out of “the
conduct, transaction, or occurrence” that the original
petition “set out” or “attempted to . . . set out”—in other
words, if the two petitions rely on a common core of
operative facts. Fed. R. Civ. P. 15(c)(1)(B); Mayle, 545
U.S. at 657, 664. “[F]or all purposes,” including relation
back, the original petition consists of the petition itself
and any “written instrument[s]” that are exhibits to the
4

Because that rule resolves this case, we do not consider whether
the original petition, without reliance on the attached Nevada
Supreme Court order, included enough factual content to support
the relation back of some of the claims later asserted in the
amended petition. See infra n.9.

App. 15
petition. Fed. R. Civ. P. 10(c); see also Dye, 546 U.S. at
4. Like a brief, a court decision is a written instrument.
See Dye, 546 U.S. at 4.
1
We follow two steps to determine whether an
amended petition relates back to an original petition
that relied on an appended written instrument to help
set forth the facts on which it based its claims. First,
we determine what claims the amended petition alleges
and what core facts underlie those claims. Second, for
each claim in the amended petition, we look to the body
of the original petition and its exhibits to see whether
the original petition “set out” or “attempted to . . . set
out” a corresponding factual episode, see Fed. R. Civ. P.
15(c)(1)(B)—or whether the claim is instead “supported
by facts that differ in both time and type from those the
original pleading set forth,” Mayle, 545 U.S. at 650,
664. At a minimum, the original petition “attempted
to . . . set out” all facts that supported a ground for
relief asserted in the original petition. Those facts
therefore could provide the necessary correspondence
for relation back. Cf. id. at 659–60 (explaining that an
amendment that “invoked a legal theory not suggested
by the original complaint” could relate back to the
original complaint because it arose out of the same
“episode-in-suit” (citing Tiller v. Atl. Coast Line R. Co.,
323 U.S. 574, 580–81 (1945))5).

5

“Episode-in-suit” refers to the incident that gave rise to a lawsuit.
In Tiller, the episode-in-suit was “a worker’s death attributed . . .
to the railroad’s failure to provide its employee with a reasonably
safe place to work.” Mayle, 545 U.S. at 660.

App. 16
In comparing the petitions’ sets of facts, we do not
require that the facts in the original and amended
petitions be stated in the same level of detail. Relation
back may be appropriate if the later pleading “merely
correct[s] technical deficiencies or expand[s] or
modif[ies] the facts alleged in the earlier pleading,”
“restate[s] the original claim with greater
particularity,” or “amplif[ies] the details of the
transaction alleged in the preceding pleading.” 6A
Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 1497 (3d ed. 2019). Sufficient
correspondence exists if the two claims arise out of the
same episode-in-suit. See, e.g., Mayle, 545 U.S. at 664
n.7 (approving relation back when “the original petition
challenged the trial court’s admission of recanted
statements, while the amended petition challenged the
court’s refusal to allow the defendant to show that the
statements had been recanted” (citing Woodward v.
Williams, 263 F.3d 1135, 1142 (10th Cir. 2001));
Nguyen v. Curry, 736 F.3d 1287, 1296–97 (9th Cir.
2013) (determining that a claim that appellate counsel
was ineffective for failing to raise double jeopardy
related back to a timely raised substantive double
jeopardy claim), abrogated on other grounds by Davila
v. Davis, 137 S. Ct. 2058 (2017).
The central question under this framework is
whether the amended and original petitions share a
common core of operative facts, as those facts are laid
out in the amended petition and “attempted to be set
out” in the original petition. If an exhibit to the original
petition includes facts unrelated to the grounds for
relief asserted in that petition, those facts were not

App. 17
“attempted to be set out” in that petition and cannot
form a basis for relation back.
Applying this framework here, Ross’s original form
petition and attached exhibit contain core facts to
which claims in his amended petition relate back. An
obvious example is Claim V of Ross’s amended federal
petition, which asserts that Ross’s trial counsel was
ineffective for failing to object when the State failed to
“provide any notice that [it] intended to present expert
testimony” from the State’s witness about what
“distract theft[s]” were. In his original form petition,
Ross listed as Claim 8 the similar contention that
“counsel . . . failed to object to the State’s use of [an]
expert witness.” The attached Nevada Supreme Court
postconviction order provided factual details related to
this claim. In its discussion of Claim D, that order
evaluated Ross’s argument that his “counsel was
ineffective for failing to object to expert testimony
pertaining to pickpockets and distraction thefts where
the [State’s] witness was not noticed as an expert.”
Comparing the claims’ operative facts clearly reveals a
common core—defense counsel’s purported failure to
object to the state witness’s distraction theft
testimony—that was present in the original petition
and to which the amended petition relates back.6

6

As explained below, see infra Part III, we remand for the district
court to consider which of the remaining claims in the amended
petition are supported by facts in the original petition. We
emphasize that the correspondence need not be as precise as the
correspondence in the expert testimony claim for there to be
relation back. See Nguyen, 736 F.3d at 1296–97.

App. 18
2
None of the State’s or the dissent’s
counterarguments is persuasive. The State argues that
the Nevada Supreme Court’s order is not a “written
instrument” within the meaning of Rule 10(c), so it
should not be considered part of Ross’s petition and
cannot provide facts to which the amended petition
could relate back. But Rule 10(c) does not define
“written instrument,” and, especially in the habeas
context, there is no reason to believe—as the State
contends—that the term was intended to be limited to
private written agreements such as contracts, leases,
or wills. See Habeas R. 4 advisory committee’s note to
1976 adoption (consideration of habeas petition “may
properly encompass any exhibits attached to the
petition, including, but not limited to, transcripts,
sentencing records, and copies of state court opinions”
(emphasis added)). Indeed, Dye instructs that a legal
brief counts as a written instrument within the
meaning of Rule 10(c). See 546 U.S. at 4.7 We need not
7

Dye did not specify whether it relied on the portion of Rule 10(c)
providing that a “written instrument that is an exhibit to a pleading
is a part of the pleading for all purposes,” the portion of Rule 10(c)
providing that “statement[s] in a pleading” may be “adopted by
reference elsewhere in the same pleading or in any other pleading or
motion,” or both. Fed. R. Civ. P. 10(c). For two reasons, we
understand the Court to have relied at least on the “written
instrument” provision. First, the Court described the brief as
appended to the petition, which is best understood as a reference to
the portion of Rule 10(c) about exhibits. Second, it is unlikely that the
Supreme Court considered the brief in itself to be “a pleading” within
the meaning of the other portion of Rule 10(c). See Fed. R. Civ. P. 7(a)
(defining types of pleadings that may be filed in federal court, and not
listing briefs); Swanson v. U.S. Forest Serv., 87 F.3d 339, 345 (9th
Cir. 1996) (distinguishing between a pleading and a brief).

App. 19
articulate a comprehensive definition of “written
instrument,” because, whatever the boundaries of the
definition, if it includes a brief it must include formal
judicial decisions.
The State contends, however, that even if the
Nevada Supreme Court’s order is a written instrument
within the meaning of Rule 10(c), Dye imposes a
requirement that a petition can only incorporate an
attachment by “clear[ly] and repeated[ly]” referencing
it—which the State argues Ross did not do. See Dye,
546 U.S. at 4. But neither the Habeas Incorporation
Provisions nor any other governing law erects this
hurdle to petitioners’ pursuit of habeas relief. Dye
treated an appended supporting brief as part of a
habeas petition pursuant to Rule 10(c), without making
a distinction between habeas petitions and other civil
actions for purposes of the incorporation of
attachments. See id. (citing one of the Habeas
Incorporation Provisions, then-Rule 81(a)(2), to support
application of Rule 10(c)). The Court mentioned that
the petition made “clear and repeated references” to the
brief, id. at 4, but that does not mean that it was
necessary for the petition to do so in order for that
attachment to be a part of the petition. To the extent
the Court relied on the “clear and repeated references”
to the brief at all, it would have been because the issue
in Dye was about whether the petition was pleaded
with sufficient particularity, not about relation back.8
8

Like the State, the dissent insists that Dye formulated a habeasspecific rule that an exhibit is incorporated only when the petition
makes “clear . . . reference[]” to it. Dissent at 47 (alteration in
original). Yet the dissent offers no explanation of why our contrary
reading of Dye is incorrect.

App. 20
In fact, a petition need not be pleaded with
sufficient particularity to support relation back.
Arguing otherwise, the State contends that Habeas
Rule 2(c), which requires that habeas petitions “specify
all the grounds for relief available” to a petitioner and
“state the facts supporting each ground,” cabins
relation back by precluding the consideration of any
matter outside the four corners of the petition.
Similarly, the dissent suggests that the purported
conflict between Rule 10(c) and Habeas Rule 2
indicates that we should preclude courts from
examining exhibits for relation back purposes unless
the exhibits have been clearly and repeatedly
incorporated by reference. Dissent at 38–40, 47 & n.6.
We cannot agree with either approach for the simple
reason that Rule 2(c) sets forth only a pleading
requirement. The requirements for relation back are
different—and explicitly more generous. Rule
15(c)(1)(B) allows relation back to an occurrence that
was only “attempted to be set out” in the original
pleading, which necessarily contemplates that the
original pleading may be inadequately pleaded yet still
support relation back. Fed. R. Civ. P. 15(c)(1)(B)
(emphasis added); see also, e.g., Dean v. United States,
278 F.3d 1218, 1222 (11th Cir. 2002) (per curiam)
(concluding that claims in an amended habeas petition
could relate back to claims in an original petition that
expressly omitted supporting facts if the claims arose
out of the same specific conduct or occurrence);9
9

The Eleventh Circuit in Dean adopted an even more permissive
approach to relation back than Ross advocates for—or than we
need consider—here. In Dean, the original petition included a
claim objecting to perjured testimony at trial for which the

App. 21
McClellon v. Lone Star Gas Co., 66 F.3d 98, 102 (5th
Cir. 1995) (allowing relation back to original complaint
that “obviously did not conform with the pleading
requirements of [R]ule 8”). Indeed, a key purpose of
Rule 15 is to permit pleading deficiencies to be fixed
through amendment. See Wright & Miller § 1497.10
Mayle does not instruct otherwise. The Court did
explain in Mayle that, because Habeas Rule 2(c)’s
particularity-in-pleading requirement is “more
demanding” than Federal Rule of Civil Procedure
8(a)(2)’s notice pleading standard,11 habeas petitioners
petitioner provided no factual support at all, indicating that he
intended to file “all facts in support thereof” at a later time. Id. at
1221–22. The Eleventh Circuit held that this claim, among others,
provided a basis for the amended petition to relate back. See id. at
1222. The court explained: “When the nature of the amended claim
supports specifically the original claim, the facts there alleged
implicate the original claim, even if the original claim contained
insufficient facts to support it. One purpose of an amended claim
is to fill in facts missing from the original claim.” Id.
10

The dissent sidesteps the fact that whether a petition was
pleaded with sufficient particularity and whether a subsequent
petition relates back to facts set out or attempted to be set out in
the original petition are different questions governed by different
standards, instead insisting that an original petition’s failure to
comply with the requirements for filing an adequate habeas
petition prevents it from supporting relation back. Dissent at 40.
But the inquiries are not so easily merged, because Rule 15
expressly contemplates that inadequately pleaded pleadings may
support relation back, thereby requiring an analysis of what the
pleading set out or attempted to set out, including in the habeas
context.
11

In light of the Supreme Court’s later decisions in Ashcroft v.
Iqbal, 556 U.S. 662 (2009), and Bell Atlantic Corp. v. Twombly, 550
U.S. 544 (2007), it is not clear that there remains much practical

App. 22
could not rely on a definition of “conduct, transaction,
or occurrence” that was more “capacious” than the
definition applied to civil cases. 545 U.S. at 655, 657.
But, contrary to the dissent’s suggestion, see Dissent at
35–36, Mayle did not adopt a habeas-specific meaning
of Rule 15 that is less capacious than the standard civil
definition. Rather, relying on Rule 15’s application in
“run-of-the-mine civil proceedings,” Mayle simply
explained that relation back depends upon there being
claims in the amended petition that share a common
core of operative facts with claims in the original
habeas petition. 545 U.S. at 657–59.12 The general
difference between Habeas Rule 2(c)’s and Federal Rule of Civil
Procedure 8(a)(2)’s pleading standards. Compare Iqbal, 556 U.S.
at 677–78 (explaining that to survive a motion to dismiss a civil
pleading must “state a claim to relief that is plausible on its face”
and cannot rely on “labels and conclusions,” “‘naked assertion[s]’
devoid of ‘further factual enhancement,’” or “a sheer possibility
that a defendant has acted unlawfully” (alteration in original)
(quoting Twombly, 550 U.S. at 555, 557, 570)), with Mayle, 545
U.S. at 655 (“In the past, petitions have frequently contained mere
conclusions of law, unsupported by any facts. [But] it is the
relationship of the facts to the claim asserted that is important.”
(alteration in original) (quoting Habeas R. 2(c) advisory
committee’s note to 1976 adoption)), and id. (“[T]he petition is
expected to state facts that point to a real possibility of
constitutional error.” (quoting Habeas R. 4 advisory committee’s
note to 1976 adoption)).
12

The dissent suggests that applying normal relation back
principles in federal habeas cases is “inconsistent with AEDPA.”
Dissent at 44, 47 n.6. This suggestion cannot be reconciled with the
reasoning in Mayle, which applied normal relation back principles
to determine relation back in a habeas case. If the Supreme Court
had believed that allowing relation back defied AEDPA’s statute
of limitations, it presumably would have just said so instead of
engaging in all of the analysis it did in Mayle.

App. 23
principle that relation back requires a single course or
pattern of conduct—not factually and temporally
unrelated conduct arising out of the same underlying
proceeding—showed why an entire criminal proceeding
was too broad to “delineate an ‘occurrence’” for relation
back purposes. Id. at 661 (quoting Fed. R. Civ. P. 15(c)).
Here, Ross identified particular errors that he believes
entitle him to habeas relief; nowhere in his original or
amended petition did he attempt to rely on his entire
trial as the transaction or occurrence at issue.13
The State next contends that permitting relation
back based on attached exhibits would contravene the
goals motivating the Habeas Rules’ adoption in Rule
2(d) of a standard form for habeas petitions. The
Advisory Committee explained that the form was
adopted to achieve greater administrative convenience.
Prior to adoption of the form, petitions frequently
contained “mere conclusions of law, unsupported by
any facts,” or were “lengthy and often illegible . . . [and]
arranged in no logical order.” See Habeas R. 2(c)
advisory committee’s note to 1976 adoption.14 Judges
who received such submissions “had to spend hours
deciphering them.” Id.
13

Indeed, Mayle instructs courts to look for “congeries” of facts, 545
U.S. at 661—which the Oxford English Dictionary defines as a
“collection of things merely massed or heaped together; a mass,
heap,” Oxford English Dictionary (2d ed. 1989)—thereby
illustrating our prior point that relation back looks to the existence
of supporting facts and not to how well those facts are pleaded.
14

Following the 1976 enactment of the Habeas Rules, subsequent
amendments moved the provision providing for a form petition
from Habeas Rule 2(c) to Habeas Rule 2(d). Accordingly, this note
corresponds to the provision now listed in Habeas Rule 2(d).

App. 24
We disagree with the State that ruling in Ross’s
favor here will saddle district courts with the task of
sifting through unmanageably large attachments. As
an initial matter, Ross was obligated to attach the
Nevada Supreme Court decision to his habeas
petition,15 and the Advisory Committee notes to the
1976 adoption of Habeas Rule 4 explicitly contemplate
that district courts will review “any exhibits attached
to the petition, including, but not limited to,
transcripts, sentencing records, and copies of state
court opinions” as part of their ordinary habeas
screening obligations. Accordingly, we see no basis to
conclude that, in general, allowing a petitioner to
incorporate facts from attachments into his petition for
relation back purposes will saddle district courts with
a greater volume of documents to review than the
Habeas Rules expressly contemplate.16
15

Because the form petition required Ross to attach the decision, it is
far from clear that, as the dissent contends, Ross failed to
“substantially follow” the requirements of the form petition. See Habeas
R. 2(d); Dissent at 40–42. The form petition purported to allow Ross to
attach only two pages stating supporting facts, but it also included a
separate requirement that he attach a state court order he knew to
contain further supporting facts. Faced with this apparent
inconsistency, he might reasonably have interpreted the form’s
instructions not to constrain him from relying on the facts in required
attachments.
16

The dissent at first appears to suggest that treating exhibits as part
of a habeas petition would undermine various aspects of habeas rules
and procedure, see Dissent at 40–42, but it later admits that any
documents to which a petition makes “clear . . . reference[]” would be
incorporated therein, see id. at 47 (alteration in original). The dissent
offers no account of why its concerns about the volume of attachments
or compliance with the habeas rules would be ameliorated by the
inclusion of words such as “see attached” or “incorporated by reference.”

App. 25
Moreover, in determining whether an amended
petition relates back, district courts face no obligation
to wade unguided through entire exhibits attached to
an original petition to determine whether those
exhibits contain core facts. Relation back is decided
once there is an amended petition—and an amended
petition must itself satisfy the particularity standards
of Rule 2(c) in order to avoid dismissal on particularity
grounds, separate and apart from timeliness concerns.
The only operative pleading before the court will
therefore presumably be one that is particular and not
too difficult to navigate. Moreover, relation back is
rarely decided on the pleadings alone; instead, courts
typically have the benefit of briefing on a motion to
amend or motion to dismiss. As in this case, such
briefing will typically identify the specific portions of
an earlier pleading that contain the relevant factual
material to which the new pleading is attempting to
relate back, avoiding the need for the judge to sift
independently through the original petition’s exhibits.
If the submissions discussing the amended petition fail
to do so, district courts have familiar remedies, such as
dismissing the new claim as time-barred for failure to
show that it relates back, declining to grant leave to
amend for similar reasons, or requesting supplemental
briefing to better explain the relationship between the
amended petition and the original one—for example, by
identifying the particular facts from an attachment
that support each claim for relief.17
17

Contrary to the dissent’s view, see Dissent at 33–34, our holdings
that an attachment to a petition is a part of the petition for all
purposes and that only those facts that correspond to a claim
asserted in the petition are “set out or attempted to be set out” in

App. 26
To the extent the State has a separate concern
about whether contending with voluminous filings is
consistent with Rule 2’s particularity-in-pleading
standard, the Habeas Rules provide a more direct
solution. It is true that some of the requirements of
Habeas Rule 2 were motivated by the Advisory
Committee’s concern that petitioners too frequently
filed “lengthy and often illegible petitions” or “mere
conclusions of law, unsupported by any facts.” See
Habeas R. 2(c) advisory committee’s note to 1976
adoption. But when a petitioner files a petition that is
insufficient under the particularity-in-pleading
standard, the Advisory Committee Notes instruct that
the district court must accept and file the defective
petition, and in appropriate circumstances “require the
petitioner to submit a corrected petition that conforms
to Rule 2(c).” See Habeas R. 2(c) advisory committee’s
note to 2004 amendment. Although an earlier
incarnation of Rule 2 had permitted a court to return
an insufficient petition to the petitioner without filing
it, following the enactment of AEDPA’s one-year
statute of limitations the Advisory Committee
cautioned that rejecting without filing “a petition
because it is not in proper form may pose a significant
penalty for a petitioner, who may not be able to file
another petition within the . . . limitations period.” Id.
Rather than retroactively applying—with prejudice—
the requirements of Rule 2(c) to an original pleading
that petition are entirely consistent. Background facts set out in an
attachment that are unrelated to the original petition’s claims may
be a part of a petition without necessarily setting out or
attempting to set out a transaction or occurrence to which a later
amended petition may relate back.

App. 27
once there is an amended pleading, district courts must
accept original petitions in the form they are filed and
then enforce Rule 2(c) by requiring petitioners to make
any necessary adjustments through the amendment
process.18
These commonsense procedures also dispose of any
concern that petitioners could lay the groundwork for
an endless host of claims unburdened by the statute of
limitations merely by submitting a blank petition and
attaching a complete trial record or other voluminous
filings. Such a petitioner would have failed to set out
any claims in her original petition in the first place,
and therefore could not incorporate corresponding facts
under the rule we explain here. And the district court
would have ample ability to require re-filing to ensure
that such a petitioner complied with the particularityin-pleading requirement.19
18

For example, if, upon “promptly examin[ing]” Ross’s original
petition, the district court had concern about a deficiency in that
petition, the district court could have informed Ross about the
deficiency. See Habeas R. 4. Had the court done so, Ross could have
simply copied the factual background from the state court order
into an amended petition. Indeed, there is every reason to believe
Ross would have done precisely this given that he had already
tried to incorporate that order by reference in support of his
claims. If this rote copying had occurred before the statute of
limitations had run, there would be no question that Ross’s
amended petition would not be time barred.
19

Although the reasons given above suffice to require reversal
here, we also note that courts are obligated to “liberally construe[]”
documents filed pro se, like Ross’s original petition. Erickson v.
Pardus, 551 U.S. 89, 94 (2007) (per curiam) (quoting Estelle v.
Gamble, 429 U.S. 97, 106 (1976)). Doing so, it is clear that Ross
“attempted to . . . set out” the factual background for the claims in
his petition by attaching the Nevada Supreme Court’s order to it.

App. 28
III
For the foregoing reasons, claims in Ross’s amended
petition that share core operative facts in common with
those in his original petition relate back to the original
petition and should not have been dismissed. But
because we do not typically consider in the first
instance issues not discussed by the district court, see
Am. President Lines, Ltd. v. Int’l Longshore &
Warehouse Union, Alaska Longshore Div., Unit 60, 721
F.3d 1147, 1157 (9th Cir. 2013), we will not ourselves
undertake the full comparison necessary to determine
which claims in the amended petition relate back.
Rather, we remand for the district court to consider
which of the claims in the amended petition (beyond
the claim regarding the failure to object to expert
testimony, discussed above) are supported by facts
incorporated into the original petition.
REVERSED AND REMANDED.

Fed. R. Civ. P. 15(c)(1)(B). The obligation to construe pro se filings
liberally means courts must frequently look to the contents of a pro
se filing rather than its form. For example, in Zichko v. Idaho, 247
F.3d 1015 (9th Cir. 2001), we concluded that a habeas petitioner
had preserved for appeal a particular claim even though facts
relating to that claim did not appear in the part of the pro se
petition in which he labeled and summarized the claim. Id. at
1020-21. And in Woods v. Carey, 525 F.3d 886 (9th Cir. 2008), we
explained that, when a pro se petitioner whose habeas petition is
pending submits a new petition, the new petition should be
construed as a motion to amend the pending petition rather than
as a second or successive petition. Id. at 888-90; see also Belgarde
v. Montana, 123 F.3d 1210, 1213 (9th Cir. 1997) (noting that we
construe pro se petitioners’ use of habeas forms “with deference”).

App. 29
IKUTA, Circuit Judge, joined by CALLAHAN and M.
SMITH, Circuit Judges, dissenting:
The Federal Rules of Civil Procedure (the Civil
Rules) do not automatically apply to habeas
proceedings. Instead, the Supreme Court has made
clear that courts must first determine whether a Civil
Rule is inconsistent with the Habeas Rules or AEDPA,
and if so, whether a less expansive reading of the Civil
Rule eliminates the conflict. See Mayle v. Felix, 545
U.S. 644, 656–64 (2005); Gonzalez v. Crosby, 545 U.S.
524, 528–33 (2005). Here, the majority interprets Rule
10(c) in the habeas context to mean that the facts
contained in “a written instrument that is an exhibit to
a” habeas petition are “part of the pleading for all
purposes” but only to the extent the facts are arguably
related to the petition’s grounds for relief. On its face,
this interpretation is unworkably broad and complex,
saddling district courts with the task of sorting through
voluminous attachments to determine which facts
correspond to a petition’s grounds for relief. In effect,
the majority returns us to the gloomy days before the
Habeas Rules when judges spent hours deciphering
“two thousand pages of irrational, prolix and
redundant pleadings.” Rule 2, Rules Governing Section
2254 Cases, advisory committee’s notes (quoting Passic
v. Michigan, 98 F. Supp. 1015, 1016 (E.D. Mich. 1951)).
Because the majority’s interpretation is inconsistent
with the Habeas Rules, AEDPA’s statute of limitations,
and the Supreme Court’s guidance on applying Rule
10(c) in this context, see Dye v. Hofbauer, 546 U.S. 1, 4
(2005) (per curiam), I dissent.

App. 30
I
In 2009, Ronald Ross was convicted by a jury of
several theft-related offenses. He was sentenced under
Nevada’s habitual-offender statute, receiving a lifetime
term of imprisonment with eligibility for parole after 20
years. Ross appealed his conviction and sentence. The
Nevada Supreme Court affirmed.
Ross then filed a pro se petition for post-conviction
relief (PCR) in Nevada state court. He attached to the
petition a 22-page handwritten memorandum that set
forth the factual bases for his claims in greater detail.
When the form petition asked for “supporting facts,”
Ross repeatedly referenced his “supporting
memorandum.” The state PCR court denied relief, and
the Nevada Supreme Court affirmed.
Having exhausted his state-court remedies, Ross
filed a timely pro se habeas petition in federal court.
Ross used the court-provided form “Petition for Writ of
Habeas Corpus Pursuant to 28 U.S.C. § 2254 By a
Person in State Custody.” The form instructs a
petitioner to “[a]ttach to this petition a copy of all state
court written decisions regarding this conviction.” In
boldface, the form warns the petitioner:
State concisely every ground for which you
claim that the state court conviction
and/or sentence is unconstitutional.
Summarize briefly the facts supporting
each ground. You may attach up to two
extra pages stating additional grounds
and/or supporting facts. You must raise in
this petition all grounds for relief that

App. 31
relate to this conviction. Any grounds not
raised in this petition will likely be barred
from being litigated in a subsequent action.
The form then leads the petitioner step-by-step to
provide the necessary information for each claimed
ground for relief. For each alleged ground of relief, the
form states, “I allege that my state court conviction
and/or sentence are unconstitutional, in violation of my
__________ Amendment right to __________, based on
these facts:__________ .” The form then guides the
petitioner to explain how this claim was exhausted in
state court.
The final page of the form requires a certification as
to the truth of the allegations. This page states in
boldface, “DECLARATION UNDER PENALTY OF
PERJURY,” and continues:
I understand that a false statement or answer to
any question in this declaration will subject me
to penalties of perjury. I DECLARE UNDER
PENALTY OF PERJURY UNDER THE
LAWS OF THE UNITED STATES OF
AMERICA THAT THE FOREGOING IS
TRUE AND CORRECT.
The petitioner must then sign and date the form.
In his petition, Ross alleged violations of his Fifth
Amendment right to due process, his Sixth Amendment
right to counsel, and his Fourteenth Amendment right
to due process and equal protection. But each time the
petition required a statement that the alleged

App. 32
constitutional violation was “based on these facts,”
Ross provided only the following conclusory allegations:
Counsel was ineffective for failing to:
1. Secure a speedy trial
2. Failed to review evidence and adequately
prepare
3. Failed to file pretrial motions
4. Failed to argue the prejudice of evidence
lost prior to trial
5. Failed to prepare for jury selection
6. Failed to prepare for trial
7. Failed to retain defense experts
8. Failed to object to the state’s use of expert
witness.
Ross did not take the opportunity to “attach up to two
extra pages stating additional grounds and/or
supporting facts.” And unlike in state court, where
Ross repeatedly referenced a “supporting
memorandum,” Ross did not indicate that any attached
document contained “supporting facts,” or even
mention any attached document.
Ross did, however, attach several documents to his
petition. First, he attached a three-page handwritten
affidavit in which he explained that he encountered
delays in obtaining a copy of a Nevada Supreme Court
ruling on his post-convictions relief claims. Second, he
attached a copy of the six-page Nevada Supreme Court

App. 33
ruling, along with a remittitur and the first page of a
letter from his attorney regarding the ruling. But
Ross’s petition made no mention of the Nevada
Supreme Court ruling.
AEDPA’s one-year statute of limitations, see 28
U.S.C. § 2244(d)(1), expired on October 27, 2014, a
little over a month after Ross filed his original petition.
On June 8, 2015, nearly eight months after the
limitations period expired, Ross’s newly appointed
counsel filed a 27-page petition styled as a “First
Amended Petition for Writ of Habeas Corpus.” The new
petition raised eleven claims for relief and provided
several pages of facts and argument for each of the
claims. The state moved to dismiss on the ground that
the amended petition was time barred, and the district
court granted the motion. This appeal followed.
II
There is no dispute that Ross filed his amended
petition after AEDPA’s one-year statute of limitations
ran. Maj. at 11. To avoid this time bar, Ross argues
that the amended petition “relates back” to the date of
the original petition under Rule 15(c)(1) of the Federal
Rules of Civil Procedure (the Civil Rules).1
There is a fatal flaw with Ross’s argument: To relate
back, the amended petition must assert “a claim or
defense that arose out of the conduct, transaction, or
1

Rule 15(c)(1) provides: “An amendment to a pleading relates back
to the date of the original pleading when . . . the amendment
asserts a claim or defense that arose out of the conduct,
transaction, or occurrence set out—or attempted to be set out—in
the original pleading.” Fed. R. Civ. P. 15(c)(1).

App. 34
occurrence set out—or attempted to be set out—in the
original pleading.” Fed. R. Civ. P. 15(c)(1). But as the
majority tacitly concedes, see Maj. at 9, 12, Ross’s
original petition contains no well-pleaded factual
allegations—indeed, it contains no factual allegations
at all. Because the original petition fails to set out any
“conduct, transaction, or occurrence,” relation back
under Rule 15(c)(1) is simply unavailable.
This should be the end of Ross’s story. But the
majority springs an unexpected twist. According to the
majority, the Nevada Supreme Court ruling that is
attached to Ross’s habeas petition must be deemed to
be part of the petition under Rule 10(c) of the Civil
Rules. Maj. at 14.2 But not the entire ruling; rather, the
majority explains, only the facts in the ruling that are
related to the original petition’s “grounds for relief” are
incorporated into the petition. Maj. at 16. If any of the
facts in the ruling are “unrelated” to the original
petition’s grounds for relief, they are effectively
stricken from the attachment. Maj. at 16. The majority
explains that, after determining which facts are
incorporated into the original petition, the district
court must then determine whether the claims in the
amended petition are “supported by facts in the
original petition.” Maj. at 17 n.6. The majority
“emphasize[s],” however, that the correspondence
between the facts incorporated by attachment into the

2

Rule 10(c) states: “Adoption by Reference; Exhibits. A statement
in a pleading may be adopted by reference elsewhere in the same
pleading or in any other pleading or motion. A copy of a written
instrument that is an exhibit to a pleading is a part of the pleading
for all purposes.” Fed. R. Civ. P. 10(c).

App. 35
original petition and the new claims need not be that
“precise.” Maj. at 17 n.6.
It is far from clear what is required under the
majority’s new rule.
As a threshold matter, the majority is inconsistent.
Relying first on the language of Rule 10(c), the majority
states that “the original petition consists of the petition
itself and any ‘written instrument[s]’ that are exhibits
to the petition” for “all purposes.” Maj. at 14. But the
majority then skips over the operative language in Rule
10(c)—that the written instrument is “part of the
pleading for all purposes”—and instead holds that the
original petition includes only certain facts set forth in
the exhibit— apparently, those facts that can be used
for the relation back of a subsequent amended petition.
See Maj. at 16. This novel approach of using Rule 15(c)
to determine the content of a habeas petition from the
vantage point of a later, untimely petition has no
support in the Civil or Habeas Rules.
Even if this backwards-looking approach made
sense, the majority fails to provide district courts with
any guidance on how to determine when the facts in an
attached exhibit are related to the “grounds for relief
asserted in [a] petition.” Maj. at 16. The legal claims
listed in the form habeas petition are often broad and
vague. Here, for instance, Ross’s original petition
asserts violations of his Fifth Amendment right to Due
Process, his Sixth Amendment right to counsel, and his
Fourteenth Amendment right to Due Process and
Equal Protection, based on conclusory allegations such
as “[c]ounsel was ineffective for failing to . . . prepare
for trial.” How will a district court determine whether

App. 36
the facts in voluminous attachments, which may
include opinions, briefs, and entire trial transcripts,
relate to the claim that counsel failed to “prepare for a
trial”? The majority does not say. The task may be
manageable in this case, where the attachment is a
mere six-page judicial opinion. But as the majority
implicitly recognizes, a district court must undertake
this analysis with respect to any and all attachments
to the habeas petition, which could amount to
thousands of pages, and the district court must deem
any fact in any attachment that even arguably relates
to a broad claim to be part of the original petition, at
least for purposes of relation back. See Maj. at 17 &
n.6.
There is a critical problem with such an expansive
interpretation and application of Rule 10(c): it is
directly contrary to Supreme Court rulings preventing
this sort of application of the Civil Rules in the habeas
context.
III
The Supreme Court has made clear that “habeas
corpus is . . . not automatically subject to all rules
governing ordinary civil actions.” Schlanger v.
Seamans, 401 U.S. 487, 490 n.4 (1971) (citing Harris v.
Nelson, 394 U.S. 286 (1969)). Habeas proceedings are
“unique,” and so “[h]abeas corpus practice in the
federal courts has conformed with civil practice only in
a general sense.” Harris, 394 U.S. at 294. From its
inception, habeas corpus was “tempered by a due
regard for the finality of the judgment of the
committing court.” Schneckloth v. Bustamonte, 412
U.S. 218, 256 (1973) (Powell, J., concurring).

App. 37
The Court has likewise made clear that a Civil Rule
“applies in habeas corpus proceedings under 28 U.S.C.
§ 2254 only ‘to the extent that [it is] not inconsistent
with’ applicable federal statutory provisions and rules.”
Gonzalez, 545 U.S. at 529 (footnote omitted) (citation
omitted). Specifically, Rule 81(a)(4) of the Civil Rules
provides that the Civil Rules apply to habeas
proceedings only “to the extent that the practice in
those proceedings: (A) is not specified in a federal
statute [or the Habeas Rules]; and (B) has previously
conformed to the practice in civil actions.” Fed. R. Civ.
P. 81(a)(4). Similarly, Habeas Rule 12 “‘permits
application of the [Civil Rules] only when it would be
appropriate to do so,’ and would not be ‘inconsistent or
inequitable in the overall framework of habeas corpus.’”
Mayle, 545 U.S. at 654 (quoting Rule 11, Rules
Governing Section 2254 Cases, advisory committee’s
notes (2004)). Moreover, even beyond a “substantive
conflict with AEDPA standards,” a Civil Rule cannot be
applied if it “could be used to circumvent” habeasspecific procedures. Gonzalez, 545 U.S. at 531–32.
In light of the Supreme Court’s recognition that
courts must “limit the friction” between a Civil Rule
and habeas requirements, id. at 534, the Court has
provided a framework for applying Civil Rules in the
habeas context.
First, any interpretation and application of a Civil
Rule in the habeas context must be consistent with the
corresponding Habeas Rule and the unique nature of
habeas proceedings. A court may not adopt an
expansive interpretation of a Civil Rule if doing so will
interfere with habeas-specific requirements. See Mayle,

App. 38
545 U.S. at 664; see also Harris, 394 U.S. at 297
(rejecting a “literal application” of Rule 33, which
provides for discovery through interrogatories, to
habeas proceedings, because it “would do violence to
the efficient and effective administration of” habeas).
Thus in Mayle, the Court rejected the Ninth Circuit’s
expansive interpretation of Rule 15(c) as allowing an
amended habeas petition to relate back to an original
petition merely because both petitions related to the
“same trial, conviction, or sentence.” 545 U.S. at 662.
According to the Court, the Ninth Circuit’s
interpretation interfered with Habeas Rule 2(c), which
required that habeas petitioners plead with
particularity. Id. at 661. Before applying a Civil Rule in
the habeas context, therefore, courts must determine
whether doing so is consistent with the corresponding
Habeas Rule, and if not, the extent to which the two
can be harmonized by applying the Civil Rule “less
broadly.” Id. at 657.
Second, any application of a Civil Rule must be
consistent with AEDPA, and AEDPA’s goal of
“advanc[ing] the finality of criminal convictions.” Id. at
662. In light of this goal, the Supreme Court held that
Rule 60, which provides for relief from final judgments
or orders, applies only narrowly in the habeas context
so as to avoid circumventing AEDPA’s general
prohibition on second or successive petitions. See
Gonzalez, 545 U.S. at 531–33; see also Pitchess v.
Davis, 421 U.S. 482, 489–90 (1975) (declining to apply
Rule 60 when doing so would be inconsistent with
statutory exhaustion requirement). Similarly, courts
must be “mindful of Congress’ decision to expedite
collateral attacks by placing stringent time restrictions

App. 39
on [them].” Mayle, 545 U.S. at 657 (citation omitted).
Given AEDPA’s concerns with “finality” and
“federalism,” it imposes “a tight time line, a one-year
limitation period” on habeas petitions. Id. at 662–63.
Courts may not apply a Civil Rule to a habeas
proceeding in a way that “swallow[s] AEDPA’s statute
of limitation.” Id. (quoting Felix v. Mayle, 379 F.3d 612,
619 (9th Cir. 2004) (Tallman, J., concurring in part and
dissenting in part), rev’d, Mayle v. Felix, 545 U.S. 644
(2005)). Thus, if applying a Civil Rule in the habeas
context would give AEDPA’s statute of limitations
“slim significance,” id. at 662, courts should apply the
rule “less broadly” to account for AEDPA’s policy
concerns regarding finality, id. at 657.
IV
The majority makes a fundamental error in
adopting an interpretation of the Rule 10(c) and
applying it in the habeas context without even
considering the Supreme Court’s guidance for ensuring
consistency with the Habeas Rules, the unique nature
of habeas, and AEDPA. Maj. at 15–17. As a result, the
majority’s interpretation conflicts with all three.
A
First, the majority’s interpretation of Rule 10(c) is
inconsistent with the corresponding Habeas Rule and
with the proper administration of habeas proceedings.
See Mayle, 545 U.S. at 661, Gonzalez, 545 U.S. at
531–33. The corresponding rule here is Habeas Rule 2,
which governs the form of habeas petitions. See Rule 2,
Rules Governing Section 2254 Cases, advisory
committee’s notes. Habeas Rule 2 provides that “[t]he

App. 40
petition must: (1) specify all grounds for relief available
to the petitioner; (2) state all facts supporting each
ground; (3) state the relief requested; (4) be printed,
typewritten, or legibly handwritten; and (5) be signed
under penalty of perjury . . . .” Rule 2(c), Rules
Governing Section 2254 Cases. The petition must also
“substantially follow either the form appended to [the
Habeas Rules] or a form prescribed by a local districtcourt rule.” Rule 2(d), Rules Governing Section 2254
Cases. The majority’s expansive interpretation of Rule
10(c) is contrary to Habeas Rule 2 in three material
ways.
First, the majority’s interpretation of Rule 10(c)
violates the requirement imposed by Habeas Rule 2(c)
that the petition specify the grounds for relief and the
facts supporting each ground. The Habeas Rules’
specificity requirement is one of the unique features of
habeas proceedings. See Mayle, 545 U.S. at 649. It is
distinct from the pleading requirements in the civil
context, see Fed. R. Civ. P. 8(a)(2), which requires that
a complaint merely provide “fair notice of what the
plaintiff’s claim is and the grounds upon which it
rests,” see Mayle, 545 U.S. at 655 (citation omitted). As
explained by the Supreme Court, Habeas Rule 2(c) “is
more demanding.” Id. “It provides that the petition
must ‘specify all the grounds for relief available to the
petitioner’ and ‘state the facts supporting each
ground.’” Id. (quoting Rule 2(c), Rules Governing
Section 2254 Cases).
This specificity requirement is necessary to assist
courts in fulfilling the Habeas Rules’ screening
function. Under Habeas Rule 4, courts must “promptly

App. 41
examine” each petition, and dismiss a petition “[i]f it
plainly appears from the petition and any attached
exhibits that the petitioner is not entitled to relief in
the district court.” Rule 4, Rules Governing Section
2254 Cases. This reflects a congressional command, see
28 U.S.C. §2243, which makes it “the duty of the court
to screen out frivolous applications and eliminate the
burden that would be placed on the respondent by
ordering an unnecessary answer,” Rule 4, Rules
Governing Section 2254 Cases, advisory committee’s
notes (citing Allen v. Perini, 424 F.2d 134, 141 (6th Cir.
1970)).
By departing from Habeas Rule 2(c)’s specificity
requirement, the majority’s interpretation of Rule 10(c)
frustrates this screening function. Under the majority’s
take on Rule 10(c), a petitioner need not state claims
and facts with specificity because the facts recited in
any attached document, whether it is a judicial opinion,
a brief, or an entire trial transcript, are deemed to be
part of the petition so long as the facts are arguably
related to the petition’s claims for relief. Maj. at 16–17.
Because any exhibit can serve as a source of facts, a
court cannot perform its screening function without
searching through the attachments and speculating as
to which facts support which claims. Moreover, the
court’s screening obligations are vitiated by a
petitioner’s ability to bring an “amended” petition at
any time by relying on facts referenced in attached
documents, so long as they are arguably related to the
claims in the original petition. Therefore, the majority’s
interpretation of Rule 10(c) interferes with “the
efficient and effective administration” of habeas.
Harris, 394 U.S. at 297.

App. 42
The majority’s argument that it can ignore the
conflict between its reading of Rule 10(c) and Habeas
Rule 2(c) on the ground that “[Habeas] Rule 2(c) sets
forth only a pleading requirement” is unavailing. Maj.
at 19. As the majority acknowledges, the threshold
question in this case is whether the facts in an
attachment can be considered part of a habeas petition
for purposes of relation back. Maj. at 15. Habeas Rule
2 “describes the requirements of the actual petition,
including matters relating to its form, contents, scope,
and sufficiency.” Rule 2, Rules Governing Section 2254
Cases, advisory committee’s notes (emphasis added). It
is precisely because Habeas Rule 2 sets forth a
“pleading requirement,” Maj. at 19, that it controls to
the extent a Civil Rule, such as Rule 10(c), could
expand the “contents” or “scope” of a habeas petition
beyond that contemplated by Habeas Rule 2, see Rule
12, Rules Governing Section 2254 Cases (Civil Rules
apply only “to the extent they are not inconsistent”
with Habeas Rules). The majority attempts to gloss
over the conflict between its application of Rule 10(c)
and Habeas Rule 2 by focusing instead on the
“generous” language of Rule 15(c)(1)(B), Maj. at 19, but
this is merely a straw man. Rule 15(c)(1)(B) does not
address the contents of the original habeas petition,
and so it has no bearing on the question whether the
majority’s application of Rule 10(c) to modify the
contents of the habeas petition is inconsistent with the
requirements of Habeas Rule 2.
Second, the majority’s interpretation of Rule 10(c)
conflicts with Habeas Rule 2(d)’s requirement that
petitioners use a standardized form. The standardized
form requirement is a unique feature of habeas,

App. 43
distinguishing habeas petitions from civil complaints.
Compare Rule 2(d), Rules Governing Section 2254
Cases with Fed. R. Civ. P. 8(a). There are habeasspecific reasons for this rule. Because habeas
petitioners are frequently pro se prisoners, see 1 Randy
Hertz & James S. Liebman, Federal Habeas Corpus
Practice & Procedure § 12.2, at 852 (7th ed. 2018), the
requirement to use a standardized form was calculated
to improve the quality of the habeas petition and to
assist judges in identifying meritorious claims, see Rule
2, Rules Governing Section 2254 Cases, advisory
committee’s notes (“Administrative convenience, of
benefit to both the court and the petitioner, results
from the use of a prescribed form.”).3 Before this
requirement, petitions “frequently contained mere
conclusions of law, unsupported by any facts.” Id. “In
addition, lengthy and often illegible petitions, arranged
in no logical order, were submitted to judges who . . .
had to spend hours deciphering them.” Id. The
standardized form in this case instructs petitioners
that they “may attach up to two extra pages stating
additional grounds and/or supporting facts.” Limiting
petitions to “two extra pages” of additional facts makes
sense in light of the concerns that motivated the
3

The majority “note[s] that courts [must] ‘liberally construe[]’
documents filed pro se.” Maj. at 26 n.19. But the form habeas
petitions like the one Ross used were designed to assist prisoners
filing pro se. See Rule 2, Rules Governing Section 2254 Cases,
advisory committee’s notes. These petitions provide clear, step-bystep instructions in plain English and give prisoners ample
guidance for setting out their claims and the facts supporting
them. Given these substantial efforts to accommodate pro se filers,
there appears to be no basis for further relaxing procedural
requirements.

App. 44
Habeas Rules. See Rule 2, Rules Governing Section
2254 Cases, advisory committee’s notes.
The majority’s interpretation of Rule 10(c)
eliminates the value of this requirement, because it
requires courts to deem attached materials part of the
petition. Maj. at 14. The majority does not acknowledge
that Ross failed to comply with the form petition. See
Maj. at 9, 23 n.15. Indeed, the majority casts aside the
form petition’s instructions and the requirement that
a petitioner “substantially follow” the form, Rule 2(d),
Rules Governing Section 2254 Cases, by interpreting
Rule 10(c) to allow petitioners to attach reams of
documents, all of which may contain facts that
correspond to the petition’s claims for relief, Maj. at
16–17.4 In doing so, the majority strikes a blow to “the
efficient and effective administration” of habeas,
Harris, 394 U.S. at 297, and returns judges to the task
of ferreting through thousands of pages of “irrational,
prolix and redundant pleadings,” Rule 2, Rules
4

The majority does not go so far as to argue that Ross
“substantially follow[ed]” the requirements of the form petition.
Maj. at 23 n.15. Instead, the majority argues that Ross might have
been confused by the instruction (on page 1) to “[a]ttach to th[e]
petition a copy of all state court written decisions regarding this
conviction” and the separate instruction (on page 3) that “[y]ou
may attach up to two extra pages stating additional grounds
and/or supporting facts.” There is nothing “apparent[ly]
inconsisten[t]” with these instructions, Maj. at 23 n.15, because no
reasonable petitioner would think that attaching “all state court
written decisions” is the same as “stating additional grounds
and/or supporting facts,” particularly given that these instructions
appear in separate sections on separate pages of the form petition.
In short, the majority’s post-hoc rationalization as to why Ross did
not follow the instructions is unsupported by the record and belied
by common sense.

App. 45
Governing Section 2254 Cases, advisory committee’s
notes (quoting Passic, 98 F. Supp. at 1016). This will
result in the very thing the Habeas Rules—and form
petitions specifically—were designed to prevent: an
increased burden on the judicial system and an
increase in length, and corresponding decrease in
quality, of habeas petitions. See id.
Finally, the majority’s interpretation of Rule 10(c)
renders the Habeas Rules’ penalty-of-perjury
requirement meaningless. A petitioner cannot
reasonably be considered to have verified the accuracy
of factual statements included in hundreds or
thousands of pages of documents from a range of
sources. See Rule 2(c)(5), Rules Governing Section 2254
Cases.5 By effectively relieving pro se petitioners of the
responsibility to verify the accuracy of the facts alleged
in a habeas petition, the majority undermines one of
the important means of improving the quality of
habeas pleadings and better enabling the courts to
identify meritorious claims. See Rule 2, Rules
Governing Section 2254 Cases, advisory committee’s
notes (“There is a penalty for perjury, and this would
seem the most appropriate way to try to discourage
it.”). Again, this penalty-of-perjury requirement is a
unique feature of habeas proceedings, and is based on
habeas-specific reasons. Cf. Fed. R. Civ. P. 11(a)
(“Unless a rule or statute specifically states otherwise,
a pleading need not be verified or accompanied by an
affidavit.”).
5

This requirement reflects a congressional command. See 28
U.S.C. § 2242 (“Application for a writ of habeas corpus shall be in
writing signed and verified by the person for whose relief it is
intended or by someone acting in his behalf.”).

App. 46
The majority does not attempt to address the
inconsistency of its interpretation and application of
Rule 10(c) with Habeas Rule 2. Instead, the majority
directs a court considering a late petition to allow (or
solicit) “briefing to better explain the relationship
between the amended petition and the original one,”
and to allow the petitioner the opportunity to identify
“the particular facts from an attachment that support
each claim for relief.” Maj. at 24– 25. This approach
tacitly concedes there may be no obvious relationship
between the original petition and the new one. Indeed,
in this very case, where the exhibit is a brief, six-page
ruling, the majority nevertheless declines to
“undertake the full comparison necessary to determine
which claims in the amended petition relate back.” Maj.
at 27.
In sum, the majority’s interpretation of Rule 10(c)
conflicts with Habeas Rule 2 and does so in a way that
frustrates the “the efficient and effective
administration” of habeas. Harris, 394 U.S. at 297. It
should be rejected on this ground alone.
B
Second, the majority’s interpretation of Rule 10(c) is
inconsistent with AEDPA. As Mayle explained, we may
not apply a Civil Rule in a manner that would “swallow
AEDPA’s statute of limitation,” 545 U.S. at 662
(citation omitted), but rather must respect Congress’s
decision to put “stringent time restrictions” on
collateral attacks, id. at 657.

App. 47
The majority’s interpretation and application of
Rule 10(c) conflicts with these instructions. If each
attachment to a habeas petition can serve as a
wellspring of facts to support new claims for relief in a
subsequent petition, petitioners will lay the
groundwork for a host of claims that will relate back
merely by pleading broad, malleable claims for relief
and then following the form’s instructions to “[a]ttach
to this petition a copy of all state court written
decisions regarding this conviction.” Because a
petitioner apparently needs only a colorable argument
that facts in an attachment relate to a broad claim in
the original petition, any reasonable petitioner will
assert broad claims for relief and attach reams of
documents to preserve a full panoply of claims that can
be revived after AEDPA’s limitations period runs.
Thus, under the majority’s reasoning, a petitioner’s
amended habeas petition will rarely be barred by
AEDPA’s statute of limitations. See Maj. at 15–17.
The majority does not address the inconsistency
between its interpretation of Rule 10(c) and AEDPA. As
the majority implicitly acknowledges, an attorney can
sidestep AEDPA’s statute of limitations merely by
explaining how facts buried in hundreds of pages of
exhibits relate to the claims for relief in the original
petition and then argue that the entirely new claims in
the amended petition relate to those facts. Maj. at
15–17. The majority fails to explain how this result can
be squared with Mayle’s warning that “it would be
anomalous” to apply an inappropriately broad reading
of a Civil Rule in the habeas context so as to avoid
AEDPA’s stringent time restrictions. 545 U.S. at 663.
Thus, the majority’s reading of Rule 10(c) “swallow[s]

App. 48
AEDPA’s statute of limitation,” Mayle, 545 U.S. at 662
(citation omitted), in direct contradiction to the
Supreme Court’s specific direction in Mayle. In
applying Rule 10(c) in a way that gives AEDPA’s
statute of limitations “slim significance,” id. at 662, the
majority disregards “AEDPA’s ‘finality’ and ‘federalism’
concerns,” id. at 663.
C
Rather than tailor its interpretation of Rule 10(c) to
be consistent with the Habeas Rules and AEDPA, as
required by the Supreme Court, the majority attempts
to justify its rejection of this guidance on the ground
that the Supreme Court cited and applied Rule 10(c) in
Dye, 546 U.S. at 4. Maj. at 14. But Dye does not support
the majority. To the contrary, it demonstrates how
Rule 10(c) should be interpreted narrowly to avoid
conflicts in the habeas context. See Dye, 546 U.S. at 4.
In Dye v. Hofbauer, the Sixth Circuit dismissed a
state prisoner’s habeas petition on the ground that the
petitioner failed to exhaust his claim of prosecutorial
misconduct in state court. 111 F. App’x 363, 364 (6th
Cir. 2004), rev’d, 546 U.S. 1 (2005). The Sixth Circuit
reasoned that the petitioner’s federal habeas petition
made only a vague reference to a due process violation;
therefore, even if the petitioner had presented an
identical claim in his state petition, he had not “fairly
presented” a federal constitutional claim to the state
court. Id. The Supreme Court reversed. Citing Rule
10(c) and Rule 81(a)(2) (which then provided that the
Civil Rules apply to habeas proceedings only “to the
extent” consistent with the Habeas Rules and historical
practice), the Court held that the petitioner had

App. 49
adequately exhausted his claims because the “petition
made clear and repeated references to an appended
[state-court] brief, which presented [the petitioner’s]
federal claim with more than sufficient particularity.”
Dye, 546 U.S. at 4. In other words, rather than rely on
Rule 10(c)’s broad language that a document attached
to a pleading “is a part of the pleading for all purposes,”
the Court held that only when a habeas petition
“ma[kes] clear . . . reference[]” to an attachment, may
a court consider the attachment under Rule 10(c) to
clarify the allegations in the petition. Id.
Contrary to the majority’s reading, Maj. at 14, by
focusing on the petitioner’s “clear and repeated
references” to the attachment, Dye implicitly rejected
the majority’s interpretation of Rule 10(c). Dye’s narrow
application of Rule 10(c) is consistent with the Habeas
Rules, the unique nature of habeas proceedings, and
AEDPA. The incorporation by reference of an
attachment, which itself was sufficiently particular, is
consistent with the specificity requirements of Habeas
Rule 2(c). See Rule 2(c), Rules Governing Section 2254
Cases. A targeted incorporation of specific facts allows
the petitioner to comply with the Habeas Rules’
penalty-of-perjury requirement, see Rule 2(c)(5), Rules
Governing Section 2254 Cases, because the petitioner
can rationally identify the specific facts verified to be
true. And Dye’s narrow interpretation of Rule 10(c) is
consistent with AEDPA’s statute of limitations,
because the incorporation of targeted facts in a
specified exhibit does not give a petitioner an
unbounded opportunity to later raise a wide range of
other claims after AEDPA’s one-year limitations period
has run. Cf. Mayle, 545 U.S. at 662.

App. 50
V
Applying Rule 10(c) as it was applied in Dye, and in
a manner consistent with the Supreme Court’s
framework, the analysis of Ross’s challenge is
straightforward. Ross’s original petition does not make
“clear . . . reference[]” to the Nevada Supreme Court
ruling attached to his petition. Ross knew how to
incorporate an appended document by reference; he did
exactly that in his state petition. Because he did not
reference the Nevada Supreme Court ruling in his
federal habeas petition, it was not incorporated into his
petition under Rule 10(c) and Dye, 546 U.S. at 4. This
means that his original petition failed to set out any
“conduct, transaction, or occurrence.” Fed. R. Civ. P.
15(c)(1)(B). In the absence of any “congeries of facts,”
Mayle, 545 U.S. at 661, in the original petition, the
amended petition could not relate back to a core of
operative facts in the original petition. As a result,
Ross’s amended petition does not relate back to the
original petition under Rule 15(c), and the claims in the
amended petition are time-barred.6
6

Because the proper analysis of Rule 10(c) resolves this case, there
is no need to analyze whether Rule 15(c) applies to the amended
petition. Nevertheless, any interpretation and application of that
rule in the habeas context must also meet the Supreme Court’s
requirement that an application of the Civil Rules be consistent
with the Habeas Rules, habeas procedures, and AEDPA. The
majority’s broad interpretation of Rule 15(c) as giving courts
expansive authority to find “[s]ufficient correspondence” between
a claim in the amended petition and a “corresponding factual
episode” in the original petition, Maj. at 15–16, and the majority’s
“emphasi[s] that the correspondence need not be as precise” as the
example in its opinion, Maj. at 17 n.6, is mistaken, cf. Mayle, 545
U.S. at 661 (rejecting Ninth Circuit’s “boundless” approach to Rule

App. 51
***
By applying Rule 10(c) to a habeas petition without
giving due consideration to the habeas context, the
majority violates the Supreme Court’s direction for
applying the Civil Rules in this context and creates an
approach inconsistent with the Habeas Rules and with
Congress’s intention to impose strict time limits on
habeas petitions. Further, the majority turns its back
on the Supreme Court’s guidance for applying Rule
10(c) in the habeas context, which makes clear that an
exhibit is incorporated into a habeas petition only when
the petition makes “clear . . . reference[] to” the exhibit.
Dye, 546 U.S. at 4. The majority’s approach is squarely
at odds with AEDPA and the Habeas Rules, and it
places a substantial burden on the judicial system.
Therefore, I dissent.

15(c) because “[a] miscellany of claims for relief could be raised
later rather than sooner and relate back”). Similarly, the majority’s
reliance on Dean v. United States, 278 F.3d 1218, 1222 (11th Cir.
2002) (per curiam), to suggest that an amended petition might
relate back to an original petition even if the original petition
“provide[s] no factual support at all” is misplaced. Maj. at 19–20 &
n.9. This is because Mayle (which postdates Dean) rejected such a
boundless application of Rule 15(c)(1)(B) by holding that “separate
congeries of facts supporting the grounds for relief . . . delineate an
‘occurrence.’” 545 U.S. at 661 (emphasis added). That is, there is no
“conduct, transaction, or occurrence” if there are no “congeries of
facts.”

App. 52

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Case No. 2:14-cv-01527-JCM-PAL
[Filed July, 19, 2018]
_________________________________________
RONALD ROSS,
)
)
Petitioner-Appellant,
)
)
v.
)
)
WILLIAMS, Warden; ATTORNEY
)
GENERAL FOR THE STATE OF NEVADA,
)
)
Respondents-Appellees.
)
_________________________________________ )
OPINION
Appeal from the United States District Court
for the District of Nevada
James C. Mahan, Senior District Judge, Presiding
Argued and Submitted December 5, 2017
San Francisco, California

App. 53
Before: Milan D. Smith, Jr. and Sandra S. Ikuta,
Circuit Judges, and John D. Bates,* District Judge.
Opinion by Judge Ikuta;
Dissent by Judge Bates
_________________________________________________
SUMMARY**
_________________________________________________
Habeas Corpus
The panel affirmed the district court’s judgment
dismissing as untimely California state prisoner
Ronald Ross’s amended habeas corpus petition brought
pursuant to 28 U.S.C. § 2254.
Ross argued that the claims in his new petition,
prepared with the assistance of counsel, arose out of
facts set out in a state court order attached to his pro
se original petition, and that the district court therefore
erred in failing to apply the relation back doctrine in
Fed. R. Civ. P. 15(c).
The panel held that because Ross did not comply
with Rule 2(c) of the Rules Governing Section 2254
Cases either directly or by incorporating (or attempting
to incorporate) the facts in the Nevada Supreme Court
affirmance into his original petition, that petition does
not provide an aggregation of facts that can support the
*

The Honorable John D. Bates, United States Senior District
Judge for the District of Columbia, sitting by designation.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 54
claims in his amended petition. The panel concluded
that the district court therefore did not err in
concluding that Ross’s amended petition cannot relate
back to the claims in his original petition.
Dissenting, District Judge Bates wrote that this
court should liberally construe Ross’s pro se original
petition as setting out facts discussed in the attached
state court decision, and should then remand for the
district court to determine in the first instance whether
the claims in the amended petition arose out of the
conduct, transaction, or occurrence set out in his
original petition.
__________________________________________________
COUNSEL
Jonathan M. Kirshbaum (argued), Assistant Federal
Public Defender; Rene L. Valladares, Federal Public
Defender; Office of the Federal Public Defender, Las
Vegas, Nevada; for Petitioner-Appellant.
Lawrence VanDyke (argued), Solicitor General;
Matthew S. Johnson, Deputy Attorney General; Adam
Paul Laxalt, Attorney General; Office of the Attorney
General, Carson City, Nevada; for RespondentsAppellees.
__________________________________________________
OPINION
IKUTA, Circuit Judge:
Ronald Ross filed an amended habeas petition eight
months after the statute of limitations under
Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA) had run. The district court dismissed it as

App. 55
untimely and rejected Ross’s argument that it related
back to his original, timely petition. Ross argues that
the claims in his new petition arose out of facts set out
in a state court order attached to his original petition,
and therefore the district court erred in failing to apply
the relation back doctrine in Rule 15(c) of the Federal
Rules of Civil Procedure (Civil Rule 15(c)). Because the
facts set out in the state court order were not clearly
incorporated into Ross’s original petition, and Rule 2 of
the Rules Governing Section 2254 Cases in the United
States District Courts (Habeas Rule 2) precludes the
court from construing the petition as incorporating
such facts, we affirm.
I
In 2009, Ronald Ross was convicted by a Nevada
jury of several theft-related offenses. Ross, who had at
least five prior felony convictions, including one for
larceny, was sentenced under Nevada’s habitual
offender statute to a lifetime term of imprisonment
with parole eligibility after 20 years. See Nev. Rev.
Stat. §§ 207.010–.016. Ross timely appealed his
conviction and sentence, and on November 8, 2010, the
Nevada Supreme Court affirmed. Because Ross did not
petition for certiorari, the Nevada Supreme Court’s
judgment became final on February 7, 2011, and
AEDPA’s one-year limitation period for Ross to file a
federal habeas petition began to run. See 28 U.S.C.
§ 2244(d)(1)(A).
On November 30, 2011, Ross timely filed a pro se
petition for post-conviction relief (PCR) in Nevada state
court, temporarily tolling the one-year period for his
federal habeas petition. See 28 U.S.C. § 2244(d)(2).

App. 56
Ross asserted five claims for relief, including violations
of his right to a speedy trial, and various theories of
ineffective assistance of counsel. Ross also attached a
22-page handwritten memorandum, setting forth in
great detail the factual bases for his claims. Ross
repeatedly referred to this memorandum when the
form petition asked for “supporting facts” for his
claims. After Ross was appointed counsel, he filed a
supplemental PCR petition, asserting six specific
claims, as well as a claim that the cumulative effect of
the alleged errors amounted to ineffective assistance of
counsel.
The state trial court denied Ross’s amended PCR
petition, and the Nevada Supreme Court affirmed on
July 30, 2014. The Nevada Supreme Court’s affirmance
identified and rejected eight specific arguments for
ineffective assistance of counsel, in addition to the
cumulative error claim.1 The Nevada Supreme Court’s
1

The Nevada Supreme Court addressed Ross’s claims that his
counsel was ineffective for:
(1) “failing to engage in pretrial discovery”;
(2) “violating [Ross’s] right to a speedy trial”;
(3) allowing “a communication breakdown [that] prevented
[Ross] from being able to assist counsel in the preparation of
his defense”;
(4) “failing to object to expert testimony”;
(5) “failing to retain a defense expert”;
(6) “failing to properly challenge the use of a preliminaryhearing transcript”;
(7) “failing to renew at trial his preliminary-hearing objection
for violating the best evidence rule”; and

App. 57
remittitur issued on August 18, 2014, and AEDPA’s
one-year limitation period began to run again the next
day. See 28 U.S.C. § 2244(d)(2); Jefferson v. Budge, 419
F.3d 1013, 1015 n.2 (9th Cir. 2005).
On September 14, 2014, Ross filed a timely pro se
habeas petition in the U.S. District Court for the
District of Nevada. Ross used the form “Petition for a
Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2254
By a Person in State Custody” promulgated by that
district court in its local rules. See Habeas R. 2(d).2 The
habeas petition form stated: “Attach to this petition a
copy of all state court written decisions regarding this
conviction.” The habeas petition form also provided
detailed instructions, which guided habeas petitioners
on how to fill in the blanks in each section of the form
in order to explain each of their separate grounds for
relief. The form begins with the instruction that the
petitioner should “[s]tate concisely every ground” for
habeas relief and “[s]ummarize briefly the facts
supporting each ground.” It also provided that Ross
could “attach up to two extra pages stating additional
grounds and/or supporting facts.” The form further
cautioned that Ross “must raise in this petition all
grounds for relief that relate to this conviction. Any
(8) “failing to raise certain objections during the State’s closing
arguments and at sentencing and for failing to move postverdict to dismiss the case for lack of evidence.”
2

As discussed in detail, infra Part III.A, the Rules Governing
Section 2254 Cases in the United States District Courts (or
“Habeas Rules”) apply to Ross’s petition. Habeas Rule 2(d) provides
that “[t]he petition must substantially follow either the form
appended to these rules [(the national form)] or a form prescribed
by a local district-court rule.”

App. 58
grounds not raised in this petition will likely be barred
from being litigated in a subsequent action.”
At the top of the template for each ground for relief,
the form contained the following sentence “I allege that
my state court conviction and/or sentence are
unconstitutional, in violation of my ___ Amendment
right to ______________, based on these facts:
_______________ . . . .” Ross alleged three grounds for
relief in the space provided by the form, alleging
violations of his Fifth Amendment right to due process,
his Sixth Amendment right to effective counsel, and his
Fourteenth Amendment rights to due process and
equal protection. In the space provided for supporting
facts, however, Ross wrote substantially the same thing
under each ground:
Counsel was ineffective for failing to:
1) Secure a speedy trial
2) Failed to review evidence and adequately
prepare
3) Failed to file pretrial motions
4) Failed to argue the prejudice of evidence lost
prior to trial
5) Failed to prepare for jury selection
6) Failed to prepare for trial
7) Failed to retain defense experts
8) Failed to object to the state’s use of expert
witness.

App. 59
Ross also attached a handwritten affidavit
explaining the reasons for his delay in obtaining a copy
of the Nevada Supreme Court’s ruling. Ross’s affidavit
explained that he was not listed on either the
distribution list for the Nevada Supreme Court’s order
of affirmance on July 22, 2014,3 nor on the distribution
list for the court’s remittitur on August 18, 2014. The
affidavit further alleged that Ross did not receive a
copy of the order of affirmance until September 11,
2014, as demonstrated by his signature and time stamp
on the front of the envelope. To document both his
absence from the distribution lists and the date he
received the order of affirmance, he attached: (1) a copy
of the Nevada Supreme Court’s order of affirmance;
(2) a copy of the Nevada Supreme Court’s remittitur;
(3) an envelope from his counsel; and (4) a letter from
his counsel dated September 2, 2014, transmitting a
copy of the Nevada Supreme Court’s order. The district
court appointed counsel for Ross, and on June 8, 2015,
Ross filed an amended petition, raising 11 grounds for
relief.4 This petition was filed nearly eight months after
3

Ross’s affidavit stated: “[O]n the date of 22 July 2014, the Nevada
Supreme Court issued an Order of Affirmance denying the appeal
of my state post-conviction writ of habeas corpus (see attached
order). That it is noticed that petitioner Ronald Ross is not listed
on the distribution for the order of affirmance.”

4

These were that: (1) Ross’s Sixth Amendment confrontation right
was violated when “the prosecution was allowed to admit the
preliminary hearing testimony of a witness even though the
prosecution did not make a sufficient showing that the witness was
unavailable”; (2) Ross’s Sixth Amendment right to a speedy trial
was violated “when the case was continued at the state’s request
for 541 days”; (3) the evidence against Ross was insufficient to
support his conviction; and (4) Ross’s Sixth Amendment right to

App. 60
AEDPA’s one-year limitation period had expired. After
the district court ordered a response, the state moved
to dismiss Ross’s amended petition as barred by the
statute of limitations. The district court granted
Nevada’s motion to dismiss. It rejected Ross’s
argument that the facts contained in the Nevada
Supreme Court’s order of affirmance were incorporated
in the original petition, and therefore rejected his
contention that the claims in his new petition related
back to the date of the original pleading. Nevertheless,
the court granted a certificate of appealability on that
issue.
We have jurisdiction under 28 U.S.C. § 2253, and
we review de novo a district court’s dismissal of an
application for a writ of habeas corpus. Jiminez v. Rice,
276 F.3d 478, 481 (9th Cir. 2001).
II
Ross does not dispute that his new petition would be
barred by the AEDPA statute of limitations unless it
relates back to the original petition pursuant to Civil

counsel was violated when trial counsel failed (a) to “protect Ross’s
right to a speedy trial”; (b) to “communicate with [Ross] prior to
trial”; (c) to “seek [an] appropriate sanction” for the state’s failure
to preserve the allegedly exculpatory surveillance video; (d) to
“object based on [the] best evidence rule” to a police detective’s
testimony about the content of that video; (e) to object to the
detective’s testimony about “distract thefts,” which Ross argued
was expert testimony; (f) to call a defense expert to rebut the
detective’s testimony; (g) to object to the admission of the
preliminary hearing testimony that allegedly violated Ross’s
confrontation rights; and (h) to “raise mitigating arguments at
sentencing.”

App. 61
Rule 15(c). We therefore begin by considering the
requirements of this rule in the habeas context.
Civil Rule 15(c) allows an amendment to a pleading
after the statute of limitations has run to relate back to
the original pleading if it arises out of the same
“conduct, transaction, or occurrence.” Fed. R. Civ. P.
15(c). This rule is applicable to a habeas petition. See
Mayle v. Felix, 545 U.S. 644, 655 (2005). “The ‘original
pleading’ to which Rule 15 refers is the complaint in an
ordinary civil case, and the petition in a habeas
proceeding.” Id. (emphasis added).
Mayle provides guidance on what constitutes the
same “conduct, transaction, or occurrence” in the
context of a habeas petition. Id. at 656–59. The
petitioner in that case had raised to the state court a
Fifth Amendment claim based on the admission of
statements made during the petitioner’s pretrial
interrogation and a Sixth Amendment claim based on
the admission of videotaped statements made by a
prosecution witness. Id. at 650. In a timely pro se
habeas petition, the petitioner raised the Sixth
Amendment claim, but not the Fifth Amendment claim.
Id. at 651. Five months after AEDPA’s statute of
limitations had run, the petitioner sought to amend his
petition to include a Fifth Amendment claim, arguing
that the claim could relate back under Civil Rule 15(c)
because “both . . . claims challenged the
constitutionality of the same criminal conviction.” Id.
at 652. The Ninth Circuit agreed, reasoning that “the
relevant ‘transaction’ for purposes of Rule 15(c)(2) was
[petitioner’s] ‘trial and conviction in state court.’” Id. at

App. 62
653 (quoting Felix v. Mayle, 379 F.3d 612, 615 (9th Cir.
2004)).
The Supreme Court rejected this interpretation of
“conduct, transaction, or occurrence.” Id. at 659.
Instead, Mayle held that “relation back depends on the
existence of a common core of operative facts uniting
the original and newly asserted claims.” Id. (internal
quotation marks and citation omitted). Even though
petitioner’s Sixth Amendment confrontation claim and
Fifth Amendment privilege against self-incrimination
claim made constitutional challenges to the admission
of pretrial statements, these claims had to be “pleaded
discretely” because they involved “separate congeries of
facts supporting the grounds for relief,” under Habeas
Rule 2(c). Id. at 661. Each of these “separate congeries
of facts,” Mayle explained, “would delineate an
‘occurrence.’” Id. In other words, for purposes of Civil
Rule 15(c), an “occurrence” is an aggregation of facts
supporting a discrete claim for relief, and a new claim
must arise from the same aggregation of facts set forth
in the earlier petition in order to relate back. An
amendment cannot relate back to “facts that differ in
both time and type from those the original [petition] set
forth.” Id. at 650.
Mayle also highlighted the flaws in the rejected
Ninth Circuit approach, under which “[a] miscellany of
claims for relief could be raised later rather than
sooner and relate back.” Id. at 661. According to the
Supreme Court, such an approach, which would define
“conduct, transaction, or occurrence” to “encompass any
pretrial, trial, or post-trial error that could provide a
basis for challenging the conviction,” would not only be

App. 63
too general, but would be contrary to Congress’s intent
in enacting the AEDPA statute of limitations. Id. at
661–62. “Congress enacted AEDPA to advance the
finality of criminal convictions,” in part by adopting a
tight time line. Id. at 662. “If claims asserted after the
one-year period could be revived simply because they
relate to the same trial, conviction, or sentence as a
timely filed claim, AEDPA’s limitation period would
have slim significance.” Id. “Given AEDPA’s ‘finality’
and ‘federalism’ concerns,” Mayle held that this
interpretation of Civil Rule 15’s application to habeas
proceedings was untenable. Id. at 663 (quoting
Williams v. Taylor, 529 U.S. 420, 436 (2000)).
In light of Mayle’s strictures, Ross’s amended
petition may relate back to the original petition only if
that petition set forth an aggregation of facts from
which his new claims arise. The petition form contains
no facts at all. Instead, Ross argues that the facts set
forth in the Nevada state court affirmance are
incorporated into the habeas petition, and the claims in
his amended petition arose out of those facts. We now
analyze this argument.
III
Our first step is to determine when, under the
applicable federal rules, an attachment to a habeas
petition is deemed to be incorporated into that petition.
This issue requires us to interpret the Habeas Rules.
A
The Habeas Rules “govern a petition for a writ of
habeas corpus filed in a United States district court
under 28 U.S.C. § 2254” by a state prisoner. Habeas R.

App. 64
1(a). Like the Federal Rules of Evidence and the Civil
Rules, the Habeas Rules are promulgated by the
Supreme Court pursuant to the Rules Enabling Act, 28
U.S.C. § 2072,5 see H.R. Rep. 94-1471, at 2 & n.2
(1976), as reprinted in 1976 U.S.C.C.A.N. 2478, 2479,
and therefore are “in every pertinent respect, as
binding as any statute duly enacted by Congress, and
federal courts have no more discretion to disregard [a]
Rule’s mandate than they do to disregard
constitutional or statutory provisions.” Bank of Nova
Scotia v. United States, 487 U.S. 250, 255 (1988). As
with other federal rules, the Advisory Committee notes
to the Habeas Rules “provide a reliable source of
insight into the meaning of a rule.” United States v.
Vonn, 535 U.S. 55, 64 n.6 (2002); see also Heinemann v.
Satterberg, 731 F.3d 914, 917 (9th Cir. 2013) (“We pay
attention to the Advisory Committee Notes.”).
The Habeas Rules incorporate some, but not all, of
the Civil Rules. Habeas Rule 12 provides that the Civil
Rules “to the extent that they are not inconsistent with
any statutory provisions or these [Habeas Rules] may
be applied to a proceeding under these rules.” See also
Fed. R. Civ. P. 81(a)(4) (providing that the Civil Rules
apply to proceedings for habeas corpus “to the extent
that the practice in those proceedings” is not specified
5

The Supreme Court initially promulgated the Habeas Rules in
1976 pursuant to authority conferred by 18 U.S.C. §§ 3771–72
(1976) (criminal proceedings) and 28 U.S.C. § 2072 (1976) (civil
proceedings). See H.R. Rep. 94-1471 at 2 n.2. The Rules Enabling
Act was subsequently amended by repealing 18 U.S.C. §§ 3771–72
and consolidating the authority to promulgate rules for both civil
and criminal proceedings in 28 U.S.C. § 2072. See Judicial
Improvements and Access to Justice Act, Pub. L. 100-702,
§§ 401–04, 102 Stat. 4642, 4648–4651 (1988).

App. 65
in “the Rules Governing Section 2254 Cases,” among
other rules). In determining whether application of the
Civil Rules would be inconsistent with statutes or the
Habeas Rules, courts must take into account “the
overall framework of habeas corpus.” Mayle, 545 U.S.
at 654 (quoting Habeas R. 12 advisory committee’s
note).6 Habeas Rule 12 “permits application of the civil
rules only when it would be appropriate to do so.”
Habeas R. 12 advisory committee’s note.
Habeas Rule 2 sets forth the requirements for the
form and content of a habeas petition. Habeas Rule 2(c)
specifies the content of the petition. Under this rule,
the petition must “specify all grounds for relief
available to the petitioner,” “state the facts supporting
each ground,” “state the relief requested,” and “be
signed under penalty of perjury,” among other
requirements.7 Habeas Rule 2(d) provides that the
petition must “substantially follow either the form
6

Habeas Rule 12 was formerly Habeas Rule 11, but was
renumbered in 2009. See Habeas R. 12 advisory committee’s note
to 2009 amendment.

7

Habeas Rule 2(c) provides in full:
The petition must:
(1) specify all the grounds for relief available to the
petitioner;
(2) state the facts supporting each ground;
(3) state the relief requested;
(4) be printed, typewritten, or legibly handwritten; and
(5) be signed under penalty of perjury by the petitioner or
by a person authorized to sign it for the petitioner under
28 U.S.C. § 2242.

App. 66
appended” to the Habeas Rules or “a form prescribed by
a local district court rule.”8
The Advisory Committee explained the reasons for
this requirement. Before the enactment of Habeas Rule
2, habeas petitions had “frequently contained mere
conclusions of law, unsupported by any facts. Since it
is the relationship of the facts to the claim asserted
that is important, these petitions were obviously
deficient.” Habeas R. 2 advisory committee’s note.
Moreover, “lengthy and often illegible petitions,
arranged in no logical order, were submitted to judges
who have had to spend hours deciphering them.” Id.
According to the Advisory Committee, “[t]he
requirement of a standard form benefits the petitioner
as well,” because the petitioner’s “assertions are more
readily apparent, and a meritorious claim is more
likely to be properly raised and supported.” Id. The
Advisory Committee acknowledged that the factual
adequacy of the petition would depend on the
petitioner’s capabilities and the available legal
assistance, but concluded that “[o]n balance . . . the use
of forms has contributed enough to warrant mandating
their use.” Id.
In Mayle, the Supreme Court reinforced these
requirements, explaining that “a complaint need only
provide fair notice of what the plaintiff’s claim is and
the grounds upon which it rests,” under the Civil Rules,
545 U.S. at 655 (citation omitted), but “Habeas Corpus
8

Habeas Rule 2(d) provides in full: “The petition must
substantially follow either the form appended to these rules or a
form prescribed by a local district-court rule. The clerk must make
forms available to petitioners without charge.”

App. 67
Rule 2(c) is more demanding” because it requires the
petition to “specify all the grounds for relief available
to the petitioner” and “state the facts supporting each
ground,” id. (quoting Habeas R. 2(c)). “[N]otice pleading
is not sufficient, for the petition is expected to state
facts that point to a real possibility of constitutional
error.” Id. (internal quotation marks omitted) (quoting
Habeas R. 4 advisory committee’s note). Mayle likewise
recognized that “the model form available to aid
prisoners in filing their habeas petitions” alerts
prisoners to this higher standard. Id.
Although Habeas Rule 2(c) has been applied strictly
to require habeas petitioners to set forth the factual
grounds in the form itself, the Supreme Court has
recognized an exception when the habeas petition
expressly incorporates attached material by reference.
See Dye v. Hofbauer, 546 U.S. 1 (2005). In Dye, the
Supreme Court considered the Sixth Circuit’s denial of
a habeas petitioner’s prosecutorial misconduct claim.
Id. at 2–3. The Sixth Circuit had denied relief in part
on the ground that the petition “presented the
prosecutorial misconduct claim in too vague and
general a form.” Id. at 4. The Supreme Court held that
this reasoning was incorrect because “[t]he habeas
corpus petition made clear and repeated references to
an appended supporting brief, which presented
[petitioner’s] federal claim with more than sufficient
particularity.” Id. In reaching this conclusion, Dye cited
Civil Rule 10(c), which provides: “A statement in a
pleading may be adopted by reference elsewhere in the
same pleading or in any other pleading or motion. A
copy of a written instrument that is an exhibit to a

App. 68
pleading is a part of the pleading for all purposes.” Fed.
R. Civ. P. 10(c).
B
Ross urges us to interpret Dye and Civil Rule 10(c)
broadly. According to Ross, because Civil Rule 10(c)
states that “[a] copy of a written instrument that is an
exhibit to a pleading is a part of the pleading for all
purposes,” a court must deem the facts set out in any
document attached to a habeas petition to be included
in his habeas petition as a matter of law, regardless
whether the petitioner “made clear and repeated
references” to the document as supporting the
petitioner’s legal claim.
We reject this argument, because it is inconsistent
with Mayle’s direction that we may apply the Civil
Rules only to the extent that they are consistent with
the Habeas Rules, see Habeas R. 12, taking into
account the overall habeas framework, see Mayle, 545
U.S. at 654.9 Ross’s proposed application of Civil Rule
10(c) would conflict with the language and purpose of
Habeas Rule 2(c), which requires petitioners to
specifically identify “the facts supporting each ground”
for relief, in order to alleviate the court’s burden of
deciphering lengthy or poorly organized petitions.
Habeas R. 2 advisory committee’s note. If Civil Rule
10(c) applies as broadly as Ross claims, judges would
once again be required to wade through “two thousand
pages of irrational, prolix, and redundant pleadings,” to
9

The parties also dispute whether a court decision is a “written
instrument” for purposes of Civil Rule 10(c), but we need not
decide that question here.

App. 69
the detriment of judges and petitioners alike. Id.
(quoting Passic v. Michigan, 98 F. Supp. 1015, 1016
(E.D. Mich. 1951)).
Further, Ross’s proposed application of Civil Rule
10(c) would be inconsistent with AEDPA. If each
attachment to a habeas petition could serve as a
wellspring of facts to support any new claim for relief
in a subsequent petition, a petitioner would lay the
groundwork for a host of claims that could later relate
back merely by following the form’s instruction to
“[a]ttach to this petition a copy of all state court
written decisions regarding this conviction.” Moreover,
any reasonable petitioner would be motivated to attach
reams of documents to each petition in order to
preserve a full panoply of possible claims that could be
revived after the limitations period has run. Such an
application of Civil Rule 10(c) “would permit ‘the
“relation back” doctrine to swallow AEDPA’s statute of
limitations.’” Mayle, 545 U.S. at 662 (quoting Felix, 379
F.3d at 619 (Tallman, J., concurring in part and
dissenting in part)). But as the Supreme Court
explained, “Congress enacted AEDPA to advance the
finality of criminal convictions,” and we may not apply
the Civil Rules in a way that would give AEDPA’s
limitations period “slim significance.” Mayle, 545 U.S.
at 662.
The application of Civil Rule 10(c) approved in Dye
raises none of these concerns. When a petitioner
incorporates by making “clear and repeated references
to an appended supporting brief,” and the brief
presents the petitioner’s claims “with more than
sufficient particularity,” it does not impose a significant

App. 70
additional burden on the courts to identify the
petitioner’s claims or assess their merit. Dye, 546 U.S.
at 4. Nor does the targeted incorporation of specific
facts in a timely petition give a petitioner an
unbounded opportunity to later raise a wide range of
other claims under the relation back doctrine. Cf.
Mayle, 545 U.S. at 661. To the extent the application of
Civil Rule 10(c) is limited to this context, where the
petitioner expressly and specifically identifies the
applicable facts incorporated into the habeas petition,
it is consistent with Habeas Rule 2, and therefore not
barred by Habeas Rule 12.
C
We also reject Ross’s argument that applying Civil
Rule 10(c) in his suggested manner is consistent with
Habeas Rule 4, which governs a district court’s
preliminary review of the petition.10 Under Habeas
Rule 4, “[i]f it plainly appears from the petition and any
attached exhibits that the petitioner is not entitled to
10

Habeas Rule 4 provides in full:
The clerk must promptly forward the petition to a judge
under the court’s assignment procedure, and the judge
must promptly examine it. If it plainly appears from the
petition and any attached exhibits that the petitioner is
not entitled to relief in the district court, the judge must
dismiss the petition and direct the clerk to notify the
petitioner. If the petition is not dismissed, the judge must
order the respondent to file an answer, motion, or other
response within a fixed time, or to take other action the
judge may order. In every case, the clerk must serve a copy
of the petition and any order on the respondent and on the
attorney general or other appropriate officer of the state
involved.

App. 71
relief,” then the district court must dismiss the
petition. Otherwise, the district court must order the
state to respond. Habeas R. 4. Because this language
directs the court to examine the facts in the state court
order or any other documents attached to the petition,
Ross argues, it enables a court to consider whether any
facts support the petitioner’s legal claims. We disagree.
Habeas Rule 4 was designed to give courts “an
active role in summarily disposing of facially defective
habeas petitions.” Boyd v. Thompson, 147 F.3d 1124,
1127 (9th Cir. 1998). The rule imposes on courts the
duty to screen out frivolous applications, Habeas R. 4
advisory committee’s note, when “the allegations in the
petition are ‘vague [or] conclusory’ or ‘palpably
incredible’ or ‘patently frivolous or false,’” Hendricks v.
Vasquez, 908 F.2d 490, 491 (9th Cir. 1990) (alteration
in original) (internal citations omitted), or if there are
easily identifiable procedural errors, such as a
procedural default, see Boyd, 147 F.3d at 1128, failure
to exhaust state remedies, see Habeas R. 4 advisory
committee’s note, or untimeliness, that are “obvious on
the face of a habeas petition,” Wentzell v. Neven, 674
F.3d 1124, 1126 (9th Cir. 2012); Herbst v. Cook, 260
F.3d 1039, 1042 (9th Cir. 2001) (same). The rule does
not authorize a court to sort through attachments to
determine whether facts can be identified to support
the petitioner’s legal claims. The latter activity is
appropriately reserved for the petitioner; even in an
ordinary civil proceeding, we are precluded from

App. 72
manufacturing a party’s case. See Dennis v. BEH-1,
LLC, 520 F.3d 1066, 1069 n.1 (9th Cir 2008).11
D
Finally, Ross argues that we should construe his pro
se pleadings liberally. He also claims his case is
particularly worthy of such liberal construction,
because the attachment in his case is only six pages in
length rather than the thousands of pages of material
that concerned the Advisory Committee. Therefore, he
argues, deeming the attached state court opinion to be
incorporated in his original petition under Civil Rule
11

Ross cites several out-of-circuit cases to support this argument,
but they are not on point, as they address the question whether
documents filed as an exhibit to the state’s answer to a habeas
petition are part of the answer, and therefore must be served on
the petitioner. In Rodriguez v. Florida Department of Corrections,
for instance, the court ordered the state to respond to the
prisoner’s habeas petition pursuant to Habeas Rule 5, and to
include a comprehensive appendix of records from prior state
proceedings. 748 F.3d 1073, 1074 (11th Cir. 2014). The state served
the prisoner with its answer, but did not include a copy of the
appendix even though its answer referred to documents in the
appendix. Id. The Eleventh Circuit concluded that because Rule 10
of the Federal Rules of Civil Procedure made the appendix “part of
the pleading,” it had to be served on the prisoner along with the
answer under Habeas Rule 4. Id. at 1076–77; see also Sixta v.
Thaler, 615 F.3d 569, 572 (5th Cir. 2010) (same); Thompson v.
Greene, 427 F.3d 263, 268–69 & n.7 (4th Cir. 2005) (holding that
failing to serve the exhibits was inconsistent with the federal rules
and the Due Process Clause). This conclusion is consistent with the
Habeas Rules. By contrast, these out-of-circuit opinions do not
address the question whether a court must deem the content of
any attached exhibit to be incorporated by reference into a
petition, nor whether such content would meet the requirement of
Habeas Rule 2(c).

App. 73
10(c) would not be overly burdensome, and would not
be inconsistent with the Habeas Rules.
To the extent Ross’s arguments are based on his pro
se status, they are unavailing. The Habeas Rules and
the standard form are designed for use by pro se
prisoners, see Habeas R. 2 advisory committee’s note,
and nevertheless impose a “more demanding” pleading
standard then had historically been required, Mayle,
545 U.S. at 655. Every pro se petitioner must meet the
same requirement to “specify all the grounds for relief”
and the “facts supporting each ground” in order to
make the meritorious claims more readily
ascertainable. As with any complaint, a habeas petition
must allege sufficient facts to establish the existence of
an actionable claim; the absence of such facts cannot be
cured by a liberal reading. Even in the civil rights
context, where our willingness to “afford the [pro se
plaintiff] the benefit of any doubt” is at its zenith,
Hebbe v. Pliler, 627 F.3d 338, 342 (9th Cir. 2010)
(quoting Bretz v. Kelman, 773 F.2d 1026, 1027 n.1 (9th
Cir. 1985) (en banc)), we will not supply elements that
are not present in a pro se plaintiff’s complaint. In
Byrd v. Maricopa County Sheriff’s Department, for
instance, we held that a pro se prisoner’s complaint
failed to state an equal protection claim, even where a
document that “was part of the record before the
district court” would have provided a “viable” basis for
that claim. 629 F.3d 1135, 1139–40 (9th Cir. 2011) (en
banc); see also Pena v. Gardner, 976 F.2d 469, 471 (9th
Cir. 1992) (holding that a district court could not
“augment” a pro se plaintiff’s complaint to survive a

App. 74
motion to dismiss by incorporating facts from a closely
related case).12
By contrast, a “technical” mistake is one that does
not implicate the substance of a petitioner’s claim. For
example, where a pro se prisoner “had complied with
all substantive requirements for filing a federal habeas
petition,” a district court could not reject the prisoner’s
petition on the ground he used “white-out and a pen on
his cover sheet to write the correct name of the court in
which he filed.” Corjasso v. Ayers, 278 F.3d 874, 878
(9th Cir. 2002). Our holding in Corjasso underscores
the difference between our willingness to overlook
technical mistakes and our unwillingness to supply
“essential elements of the claim that were not initially
pled,” even in the pro se context. Ivey v. Bd. of Regents
of Univ. of Alaska, 673 F.2d 266, 268 (9th Cir. 1982).
The dissent’s reliance on Corjasso to show we do not
hold a “technical” mistake against pro se petitioners,
Dissent at 33, is therefore misplaced.13
12

The dissent attempts to distinguish Byrd, Pena, and Ivey on the
ground that they do not involve relation back under Civil Rule
15(c). Dissent at 36. This misses the point. These cases establish
the rule that a court cannot augment a pro se petitioner’s
complaint by including facts borrowed from documents outside the
complaint. As a necessary result, the “conduct, transaction, or
occurrence set out—or attempted to be set out—in the original
pleading,” Fed. R. Civ. P. 15(c)(1)(B), does not include facts that
cannot be found in the original pleading. An amended complaint
cannot relate back to an original pleading that is missing the
relevant facts.
13

The dissent cites cases where we have recharacterized the
nature of a petitioner’s filing in a manner that favors the
petitioner, Dissent at 31–32 (citing Woods v. Carey, 525 F.3d 886,
888, 890 (9th Cir. 2008) (recharacterizing a “second” habeas

App. 75
E
The dissent focuses on the slightly different
argument that facts contained in the state court order
attached to Ross’s original petition constitute
“occurrence[s]” that were “attempted to be set out” in
the petition itself, Fed. R. Civ. P. 15(c)(1)(B); Dissent at
32, 36, 41, and therefore provide a basis for relation
back of the new petition.
We disagree with the dissent’s reading of
“attempted to be set out” in this context. As noted
above, because a court cannot augment a pro se
petitioner’s complaint by including facts borrowed from
documents outside the complaint (except when they are
expressly incorporated by reference in the complaint),
we may not deem such facts to be set out or “attempted
to be set out” in that pleading. See supra p. 21. The
dissent’s contrary reading of Civil Rule 15 runs afoul of
Mayle’s warning not to adopt an overly “capacious”
construction of the rule, 545 U.S. at 657, and not to
view its requirements “at too high a level of generality,”
id. at 661 (citation omitted), in a manner that would
defeat the purposes of Habeas Rule 2(c) and AEDPA.14
petition as a motion to amend rather than a successive petition);
United States v. Seesing, 234 F.3d 456, 464 (9th Cir. 2000) (noting
the practice of recharacterizing pro se filings as § 2255 habeas
petitions under certain circumstances)). Those cases are
inapplicable here. While a court may “ignore the legal label that a
pro se litigant attaches to a motion and recharacterize the motion
in order to place it within a different legal category,” Castro v.
United States, 540 U.S. 375, 381 (2003) (collecting cases), a court
may not manufacture the substance of a petitioner’s claim.
14

The dissent cites to a pre-Mayle case, Anthony v. Cambra, 236
F.3d 568, 576 (9th Cir. 2000), Dissent at 32, for the general

App. 76
Rather, as Mayle explains, the scope of Civil Rule 15(c)
must be read in light of Habeas Rule 2(c), which
“instructs petitioners to ‘specify all [available] grounds
for relief’ and to ‘state the facts supporting each
ground.’” Id. (alteration in original) (quoting Habeas R.
2(c)). Merely attaching a state court order to a habeas
petition, as required by the petition form, does not
qualify as an attempt to meet such requirements.15 Cf.
Dye, 546 U.S. at 4.
Moreover, the dissent’s construction would raise the
concerns cited in Mayle that the relation back doctrine
will “swallow AEDPA’s statute of limitations.” Mayle,
proposition that we freely allow relation back in the habeas
context, but that case is inapposite. In that case, there was no
dispute that the habeas petitioner had set forth his claims in
sufficient detail in the original petition, and we applied Civil Rule
15(c) only to revive these claims after the court mistakenly
dismissed the original petition due to a procedural error. Anthony,
236 F.3d at 575–77.
15

The dissent argues that because the facts in the state court order
attached to Ross’s original petition “match the claims raised
summarily in the petition,” we should deem the attachment to
constitute an attempt to set out the facts supporting Ross’s claims
for purposes of Civil Rule 15(c). Dissent at 34. But there is no such
one-to-one matching between the two documents. At least half the
claims in Ross’s original petition do not line up with the state court
opinion. The state court makes no mention of a claim based on
counsel having “[f]ailed to prepare for jury selection.” Nor does the
state court opinion clearly provide the factual bases for Ross’s
claims that counsel “[f]ailed to review evidence and adequately
prepare,” “[f]ailed to argue the prejudice of evidence lost prior to
trial,” and “[f]ailed to prepare for trial.” Given the inconsistency
between Ross’s petition and the state court order and the lack of
any clarifying incorporation by reference, a district court could not
glean that Ross was attempting to set forth the bases of his claims.

App. 77
545 U.S. at 662 (quoting Felix, 379 F.3d at 619
(Tallman, J., concurring in part and dissenting in
part)). As explained above, attaching the state court
opinion is precisely what the form petition already
requires petitioners to do. Because it summarizes the
relevant pretrial, trial, and post-trial conduct, a state
court opinion would allow “[a] miscellany of claims for
relief [to] be raised later rather than sooner and relate
back,” so long as they have some relation to the
opinion’s description of those events. Id. at 661.
Regardless whether this is labeled as incorporation by
reference under Civil Rule 10(c), as Ross suggests, or
an attempt to set out facts under Civil Rule 15(c), per
the dissent, this rule would effectively toll the statute
of limitations for all such claims for all petitioners
using the form petition. Because we may not construe
Civil Rule 15(c) in an overly “capacious” manner that
would defeat Habeas Rule 2 and AEDPA, Mayle, 545
U.S. at 657, we reject these arguments. For the same
reasons, we reject Ross’s and the dissent’s argument
that we should make an exception to the strictures of
Civil Rule 15(c) in his case due to the fact that the state
court opinion was only six pages long.16
16

Even if a limited exception for state court orders, as opposed to
trial transcripts and other documents, were consistent with the
Habeas Rules, any such “limiting” rule is not tethered to anything
in the Habeas Rules or the habeas framework itself, and so it is
doubtful that it would stay limiting for long. District judges will
ultimately be required to undertake the substantial burden of
making case-by-case determinations in response to petitioners’
arguments that various attachments provide a sufficient basis for
relation back, contrary to the reasons for mandating the use of
standard forms. The dissent’s suggestion that at least short state
court opinions should be deemed to constitute an attempt to set out

App. 78
F
Finally, the dissent argues that we should make an
exception to Civil Rule 15(c) in Ross’s case due to his
pro se status at the time of his original petition. The
dissent pays lip service to the concerns raised in Mayle
regarding clarity and finality but brushes them aside,
concluding that they are not “sufficient to justify
withholding the benefit of liberal construction from a
pro se petitioner.” Dissent at 39. But this is contrary to
Mayle’s clear instructions that we must take such
concerns seriously when applying relation back in the
habeas context. 545 U.S. at 662. In fact, Mayle
expressly rejected the argument that a more liberal
relation back scheme was necessary to protect the
interests of pro se prisoners. See id. at 664 n.8; id. at
675–76 (Souter, J., dissenting).
The dissent attempts to distinguish Mayle on
several grounds, but none of them is persuasive. First,
the dissent concedes that Mayle declined to
differentiate between pro se petitioners and those
represented by counsel in applying Civil Rule 15(c) to
the habeas context, but makes a flimsy attempt to
distinguish Mayle on the ground that the pro se
petitioner’s counsel in Mayle was appointed before the
statute of limitations had expired. Dissent at 40 n.4.
This argument is meritless. While Mayle noted the
timing of the counsel’s appointment, that fact did not
influence Mayle’s interpretation of the relation back
doctrine. See 545 U.S. at 664 n.8 (explaining that the
filing of a habeas petition does not fall within the
the relevant “conduct, transaction, or occurrence” in the original
petition, Dissent at 32 n.1, fails for the same reason.

App. 79
category of cases that “require appointment of counsel
for an indigent litigant at a critical stage to ensure his
meaningful access to justice”).
Second, the dissent argues that Mayle is
distinguishable because “many of Ross’s claims were
raised in his original petition—he simply failed to
substantiate them with sufficient facts.” Dissent at
38–39. This ignores Mayle’s central holding. Mayle did
not focus on whether the petitioner’s original and
amended petitions raised the same claims, but rather
held that the new Fifth Amendment claim in the
amended petition did not relate back to the original
petition, because the original petition did not contain
“separate congeries of facts supporting th[at] ground[]
for relief.” 545 U.S. at 661. Thus under Mayle, the
relation-back question here is whether Ross’s original
petition incorporated the facts set out in the attached
state court order, not whether Ross sought to raise new
claims in his subsequent amended petition. And
contrary to the dissent, Mayle’s insistence on avoiding
an interpretation of Rule 15(c) that would allow a
petitioner to raise a “miscellany of claims for relief” in
subsequent petitions without regard to AEDPA’s
statute of limitations carries equal force here. Id. at
661–62. As the dissent concedes, Ross’s amended
petition seeks to raise multiple new claims not

App. 80
presented in the original petition.17 Certainly, Ross’s
case is not distinguishable from Mayle on this basis.
The dissent’s other arguments for ignoring the
concerns set forth in Mayle are similarly meritless. The
dissent notes that Ross “indisputably filed his original
petition within the applicable one-year limitations
period.” Dissent at 39. This is immaterial, however, as
the same could be said in every relation back case
where a plaintiff files an inadequate original petition
and seeks to have a subsequent amended petition
relate back. Finally, the dissent contends that because
Civil Rule 15(a)(2) allows a court to deny a petitioner
leave to file an amended petition, it provides an
adequate safeguard against abuse. Dissent at 39. But
Mayle squarely rejected this argument. 545 U.S. at 663
(“[W]e do not regard Rule 15(a) as a firm check against
petition amendments that present new claims
dependent upon discrete facts after AEDPA’s limitation
period has run.”).
We therefore reject Ross and the dissent’s
arguments based on Ross’s pro se status at the time of
17

Ross raised only ineffective assistance of counsel claims in his
original petition. In his amended petition, Ross asserted direct
violations of his Confrontation Clause and Speedy Trial rights, and
brought a sufficiency-of-the-evidence challenge. Ross’s amended
petition also alleged that counsel was ineffective for failing to raise
mitigating arguments at sentencing, a claim that is likewise
absent from his original petition. Moreover, the amended petition
sought to revive multiple ineffective assistance claims that were
addressed in the state court order but not raised in the original
petition, such as inadequate communication, failure to object based
on the best evidence rule, and failure to object based on witness
unavailability.

App. 81
his original petition. This is not to say that pro se
habeas petitioners may not benefit from our practice of
liberal construction. Consistent with the pleading
scheme, a court may liberally construe the legal claims
and facts set forth in the petitioner’s habeas form,
pursuant to Habeas Rule 2(c), as making out a
plausible claim for relief. But giving a generous reading
to the claims a petitioner has actually made is a far cry
from requiring a court to piece together the claims
themselves. Whether under the guise of Civil Rule 10(c)
or 15(c), even “a liberal interpretation . . . may not
supply essential elements of the claim that were not
initially pled.” Ivey, 673 F.2d at 268; see also Hall v.
Bellmon, 935 F.2d 1106, 1110 (10th Cir. 1991) (“The
broad reading of the plaintiff’s complaint does not
relieve the plaintiff of the burden of alleging sufficient
facts on which a recognized legal claim could be
based.”).
IV
Applying these legal principles here, we conclude
that the Nevada state court affirmance is not
incorporated by reference in Ross’s original petition.
There is no dispute that Ross did not comply with
Habeas Rule 2(c) or the language in the standard form
prescribed by the Nevada district court, which required
him to “summarize briefly” the necessary facts in the
space provided for each ground and to “attach up to two
extra pages stating additional grounds and/or
supporting facts.” Unlike the petitioner in Dye, Ross
did not incorporate the facts supporting his legal
allegations by making “clear and repeated references”
to the document as supporting his legal claims. 546

App. 82
U.S. at 4. Indeed, Ross made no attempt to do so. His
federal habeas petition makes no reference to the state
court order or indicates that it sets forth the facts
supporting his claimed grounds for relief.18 Rather, his
reference to the state court affirmance in his affidavit
makes it clear he intended to use it for a different
purpose, namely to support his affidavit’s explanation
of the timing of when he learned of the state court’s
ruling. This was no mistake; Ross knew how to
incorporate by reference, because he had filled out a
similar form for his state PCR petition, attached a 22page handwritten memorandum that set forth the
factual background for each claim and identified the
facts that were relevant to each claim, and explicitly
incorporated those facts with respect to each claim in
his state PCR petition by writing “please see
supporting memorandum. . .” in the space provided for
supporting facts for each claim.
Because Ross did not comply with Habeas Rule 2(c)
either directly or by incorporating (or attempting to
incorporate) the facts in the Nevada Supreme Court
affirmance into his original petition, that petition does
not provide an aggregation of facts that can support the
claims in his amended petition. Accordingly, the
district court did not err in concluding that Ross’s
amended petition cannot relate back to the claims in
his original petition because they contain no facts.

18

We reject Ross’s argument that, by checking the space on the
form petition indicating that he had raised Ground 1 to the Nevada
Supreme Court, he also explicitly incorporated the Nevada
Supreme Court’s order deciding that ground. This falls far short of
the “clear” reference that Dye requires. 546 U.S. at 4.

App. 83
AFFIRMED.
__________________________________________________
BATES, Senior District Judge, dissenting:
Proceeding pro se, Ronald Ross filed a federal
habeas petition a few months before his time to do so
under the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”) was set to expire. His form
petition asserted ineffective assistance of trial counsel
on several grounds, including failure to secure a speedy
trial, to assert prejudice from evidence lost before trial,
to retain defense experts, and to object to the state’s
experts. Ross’s petition contained no specific factual
allegations, but he attached to his petition a six-page
state-court decision that discussed the factual bases of
most of his claims in some detail. The majority holds
that Ross’s amended petition—which he prepared with
the assistance of counsel but filed several months after
AEDPA’s deadline had passed—does not relate back to
the date of his original petition because the original
petition set out no facts. See Fed. R. Civ. P. 15(c)(1)(B)
(providing that an amendment relates back if it asserts
claims that arise out of the “conduct, transaction, or
occurrence” set out in the original pleading).
Under the familiar rule that pro se pleadings are to
be liberally construed, however, see Erickson v. Pardus,
551 U.S. 89, 94 (2007) (per curiam), we should read
Ross’s original petition as setting out the facts
discussed in the attached state-court decision. Then, we
should remand for the district court to determine in the
first instance whether the claims in Ross’s amended
petition arose out of the conduct, transaction, or
occurrence set out in his original petition.

App. 84
I
Federal Rule of Civil Procedure 15(c)(1)(B) permits
an amendment to a pleading to relate back to the date
of the original pleading where “the amendment asserts
a claim or defense that arose out of the conduct,
transaction, or occurrence set out—or attempted to be
set out—in the original pleading.” The Supreme Court
has recognized that Rule 15(c) applies in habeas
proceedings, see Mayle v. Felix, 545 U.S. 644, 655
(2005), and there is no dispute that if the claims in
Ross’s amended habeas petition arose out of the
“congeries of facts” set out in his original petition, id. at
661, the amendment would be timely. According to the
majority, however, Ross’s original petition set out “no
facts at all,” Majority Op. at 11, and so there was
nothing for the claims in Ross’s amended petition to
relate back to.
But this reading of Ross’s original petition is unduly
narrow in light of his pro se status. The Supreme Court
has repeatedly told us that pro se filings are to be
liberally construed. See Erickson, 551 U.S. at 94
(quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976)).
This rule applies with equal force in the habeas
context, where it requires courts not only to draw
reasonable factual inferences in the petitioner’s favor,
see Porter v. Ollison, 620 F.3d 952, 958 (9th Cir. 2010),
but also to construe the filing itself in a manner that
favors the petitioner, see, e.g., Woods v. Carey, 525 F.3d
886, 890 (9th Cir. 2008) (construing a pro se filing
styled as a “second” habeas petition as a motion to
amend a pending petition, thereby avoiding AEDPA’s
exacting standards for second and successive petitions);

App. 85
United States v. Seesing, 234 F.3d 456, 463–64 (9th Cir.
2000) (reversing the district court’s decision to construe
a pro se prisoner’s letter as a habeas petition because
doing so “seriously diminished the possibility of
successfully filing a future, properly drafted and
documented, motion”).
Here, the facts underlying the claims in Ross’s
original petition were set out (for the most part) in a
reasoned decision of the Nevada Supreme Court, which
was attached as an exhibit to Ross’s petition. In light of
Ross’s pro se status, his original petition should have
been liberally construed as at least “attempt[ing] to . . .
set out” those facts. Fed. R. Civ. P. 15(c)(1)(B)
(emphasis added); see Anthony v. Cambra, 236 F.3d
568, 576 (9th Cir. 2000) (allowing relation back in the
habeas context where “the central policy of Rule
15(c)—ensuring that the non-moving party has
sufficient notice of the facts and claims giving rise to
the proposed amendment—[was] satisfied”). To the
extent that his amended petition asserted claims
arising out of those facts, therefore, it should have been
allowed to relate back.
True, the form petition that Ross filled out
instructed him to “[s]ummarize briefly the facts
supporting each ground” for relief, and Ross failed to
heed this instruction. But as counsel for the state
admitted at oral argument, had Ross’s petition simply
pointed to the facts discussed in the Nevada Supreme
Court’s order, those facts would have been incorporated
into the petition by reference and hence could have

App. 86
supported relation back.1 See Fed. R. Civ. P. 10(c); Dye
v. Hofbauer, 546 U.S. 1, 4 (2005). Perhaps we should
not excuse a counseled petitioner for such a mistake,
and perhaps even a pro se petitioner could not prevail
if the attachment were a trial transcript or some other,
denser document. But here, where the factual bases of
Ross’s claims were plain on the face of the attachment
to his pro se petition, Ross’s failure explicitly to
incorporate those facts into his form petition was
precisely the kind of “technical” mistake that we have
repeatedly refused to hold against pro se petitioners.
Corjasso v. Ayers, 278 F.3d 874, 878 (9th Cir. 2002).
The majority protests that this application of the
rule of liberal construction for pro se pleadings lacks a
limiting principle. Respectfully, I disagree. Where, as
here, a statecourt decision denying postconviction relief
is attached as an exhibit to a pro se habeas petition and
the petition lists claims that correspond to the claims
addressed in that decision, principles of liberal
construction require that the facts discussed in the
1

When asked what Ross would have had to do to incorporate these
facts into his petition, counsel replied that “he could have said, ‘see
page 3 of that decision, here’s the facts that I want to incorporate
as my supporting facts.’” See U.S. Court of Appeals for the Ninth
Circuit, 16- 16533 Ronald Ross v. Williams, YouTube, 12:05–12:12
(Dec. 5, 2017), https://www.youtube.com/watch?v=bryJdYNcodY.
In other words, the state contends that for incorporation to be
effective, a petitioner must identify the specific facts that the
petitioner believes support his claims. But the state-court decision
attached to Ross’s petition is only six pages long, four of which set
out the factual basis for (and then reject) each of his eight claims.
If a simple “see pages 2 through 5” would not have been enough to
incorporate the facts stated on those pages, what more would Ross
have had to write? The state’s attempt to frame incorporation by
reference as a demanding task is unpersuasive.

App. 87
decision be construed as “set out” in the petition for
purposes of relation back under Rule 15(c).
This narrow rule makes sense. State-court decisions
denying postconviction review usually distill the
factual background of a petitioner’s claims into an
easily digestible summary. See Rule 5 of the Rules
Governing Section 2254 Cases in the U.S. District
Courts (the “Habeas Rules”) advisory committee’s note
to 2004 amendment (recognizing that such decisions
“may assist [the federal habeas court] in resolving the
issues raised . . . in the petition”). Moreover, because
AEDPA’s exhaustion requirement bars a petitioner
from asserting claims in a federal habeas petition that
were not raised in state proceedings, see 28 U.S.C.
§ 2254(b)–(c), the state-court decision will in most cases
neatly summarize the facts underlying those
claims—and only those claims—that the district court
can consider on habeas review. And where the claims
addressed in an attached state-court decision match
the claims raised summarily in the petition, the pro se
petitioner can fairly be said to have “attempted” to set
out those facts in his petition. Fed. R. Civ. P.
15(c)(1)(B).
The limitations of this approach are firmly
grounded in the framework of habeas litigation. Unlike
the state-court decision denying postconviction review,
documents like trial transcripts or other parts of the
state-court record are less likely to summarize
concisely the facts underlying the petitioner’s claims.
And other decisions from earlier in the petitioner’s
state-court proceedings are less likely to summarize the
facts underlying precisely those claims that the

App. 88
petitioner is entitled to assert on federal habeas review
in light of AEDPA’s exhaustion requirement.
The majority’s concern that a narrow ruling in
Ross’s favor would not “stay limiting for long” is
unwarranted. Majority Op. at 25 n.16. District courts
know that liberal construction does not require them
“to act as counsel or paralegal to pro se litigants.” Pliler
v. Ford, 542 U.S. 225, 231 (2004); see Barnett v. Duffey,
621 Fed. App’x 496, 496–97 (9th Cir. 2015)
(unpublished) (affirming the district court’s refusal to
consider a claim that was “‘buried,’ by [the petitioner’s]
own description, amid hundreds of pages of evidentiary
exhibits appended to his petition”). They are well
versed in the practice of parsing pro se pleadings, and
faithfully applying the rule of liberal construction here
would by no means leave them at sea.
II
Like Ross’s briefing, the majority’s analysis focuses
primarily on a different issue: whether Federal Rule of
Civil Procedure 10(c), which provides that “[a] copy of
a written instrument that is an exhibit to a pleading is
a part of the pleading for all purposes,” should be
applied here under Habeas Rule 12, which states that
“[t]he Federal Rules of Civil Procedure . . . may be
applied to a [habeas] proceeding,” but only “to the
extent that they are not inconsistent with any
statutory provisions or these rules.” The majority
concludes that Civil Rule 10(c) does not apply because
Ross’s original petition did not “expressly incorporate[]”
the attached state-court decision. Majority Op. at 15.
This is so, the majority explains, because applying Rule
10(c) in such a case would conflict with Habeas Rule 2,

App. 89
which states that a petition “must . . . state the facts
supporting each ground [for relief].” See id. at 12–18.
I express no opinion on the majority’s analysis of the
interplay between Habeas Rule 2, Habeas Rule 12, and
Civil Rule 10(c), because I do not think it is necessary
to resolve this case. But the majority also rejects the
narrow course here—liberally construing Ross’s pro se
habeas petition as attempting to set out, for purposes
of relation back, the facts discussed in the attached
state-court decision that denied him postconviction
relief—as inconsistent with Habeas Rule 2. See id. at
20–28. In my view, this is error.
To begin with, it is important to recognize what is
not at stake. The question here is not whether the
district court should have considered the facts
discussed in the attached state-court decision to
evaluate the factual sufficiency of Ross’s original
petition under Habeas Rule 2. Indeed, there is no
dispute that Ross’s amended petition clearly states the
factual basis for each of the claims it asserts. The
question, rather, is whether the district court should
have considered the facts discussed in the attached
state-court decision as “set out”—or at least “attempted
to be set out”—in his original petition for purposes of
relation back under Civil Rule 15(c).
In concluding that allowing relation back here
would conflict with Habeas Rule 2, the majority
conflates these two inquiries. For example, the majority
relies on three cases in which this Court refused to
apply liberal-construction principles to “supply
‘essential elements of [a] claim that were not initially
pled’” in a pro se plaintiff’s civil complaint. Majority Op.

App. 90
at 22(quoting Ivey v. Bd. of Regents of Univ. of Alaska,
673 F.2d 266, 268 (9th Cir. 1982)); see id. at 21 (quoting
Byrd v. Maricopa Cty. Sheriff’s Dep’t, 629 F.3d 1135,
1139–40 (9th Cir. 2011), and citing Pena v. Gardner,
976 F.2d 469, 471 (9th Cir. 1992)). In Byrd and Pena,
however, the plaintiffs sought to rely on facts outside of
their complaints to survive a motion to dismiss under
Civil Rule 12(b)(6). And Ivey simply affirmed the
dismissal of a complaint having no specific factual
allegations that defendants engaged in the misconduct
alleged. None of these cases involved relation back
under Civil Rule 15(c).
This distinction matters because Civil Rule 15(c)
requires less for relation back than Habeas Rule 2
requires to survive dismissal. Civil Rule 15(c) is
satisfied if the original petition “set[s] out”—or even
“attempt[s]” to set out—the factual basis for the
amendment’s claims. Habeas Rule 2, by contrast,
requires that the petition’s claims be pleaded with
“particularity,” a standard that the Supreme Court has
called “demanding.” Mayle, 545 U.S. at 655. This
differential makes sense, because the two doctrines
serve different purposes. Habeas Rule 2’s pleading
standard seeks to discourage “lengthy and often
illegible petitions” that require “hours [to] decipher[],”
as well as petitions “contain[ing] mere conclusions of
law, unsupported by any facts.” See Habeas Rule 2
advisory committee’s note. But relation back simply
ensures that the respondent has fair notice of what the
petitioner might later assert in an amendment to his
petition. See Anthony, 236 F.3d at 576.

App. 91
The majority’s real argument, then, is that
permitting relation back here would conflict with the
policy considerations that Habeas Rule 2 was intended
to advance. See Majority Op. at 16–17, 23–25. But
while those policy concerns might control in the mine
run of cases, they carry less force here. As one might
expect of a decision from a state’s highest court, the
Nevada Supreme Court’s order was neither “lengthy”
nor “illegible.” On the contrary, it stated the facts
underlying Ross’s claims clearly, concisely, and in a
manner that highlighted their legal significance. See
Habeas Rule 2 advisory committee’s note (“[I]t is the
relationship of the facts to the claim asserted that is
important . . . .”). And since this will likely be true of
most reasoned state-court opinions denying
postconviction relief,2 relation back here implicates
none of the efficiency concerns that animate Habeas
Rule 2.
Indeed, the only sense in which the narrow
approach that I have proposed could conceivably
conflict with the policies underlying the Habeas Rules
is that, in some cases, it would allow Habeas Rule 2’s
pleading requirement to be met by an amended petition
filed after the running of AEDPA’s oneyear statute of
limitations. The majority asserts such a result would
2

Under the approach I think we should take, federal habeas courts
might have to consider the facts set out in lengthier state-court
decisions. But surely even these decisions will not be “illegible,”
and length alone is no reason to ignore such a decision when it is
included as an attachment to a pro se habeas petition. Time is a
valuable resource in state courts as well, and there is no reason to
believe that a state court will recite more facts than are necessary
to resolve whatever claims the petitioner raised below.

App. 92
run afoul of Mayle, where the Supreme Court rejected
a reading of the phrase “conduct, transaction, or
occurrence” in Civil Rule 15(c) that would have
encompassed the petitioner’s entire trial and conviction
in state court. See 545 U.S. at 662 (“If claims asserted
after the one-year period could be revived simply
because they relate to the same trial, conviction, or
sentence as a timely filed claim, AEDPA’s limitation
period would have slim significance.”).
But Ross’s case is distinguishable from Mayle in two
important respects. First, unlike the petitioner in
Mayle, whose proposed application of Civil Rule 15(c)
would have allowed his claims to be “raised later rather
than sooner and relate back,” id. at 661, many of Ross’s
claims were raised in his original petition—he simply
failed to substantiate them with sufficient facts.3
Second, the set of Ross’s claims that, in my view,
should be allowed to relate back is far narrower than
the set of claims at issue in Mayle: a habeas petitioner
3

The majority disputes this, asserting that Ross’s original petition
“raised only ineffective assistance of counsel claims.” Majority Op.
at 27 n.17. But the majority again reads Ross’s petition too
narrowly. The petition alleged that “counsel was ineffective for
failing to” do a number of things—including to “[s]ecure a speedy
trial.” Liberally construed, this allegation states a freestanding
speedy trial claim. Moreover, even if Ross’s original petition were
properly read as asserting only ineffective assistance of counsel
claims, such claims make up the bulk of Ross’s amended petition.
Finally, although some of the claims in the amended petition do
not seem to appear in the original (even with the state-court order
attached), the match between the two petitions was not fully
addressed in the parties’ briefs—indeed, the state did not address
the issue at all. Thus, we should have done as the state suggested
and remanded this case to the district court to perform the
relation-back analysis in the first instance.

App. 93
should be allowed to amend his petition only to clarify
claims whose factual bases were clearly addressed in
an attached state-court decision denying him
postconviction relief. Such a limited rule would hardly
“swallow AEDPA’s statute of limitation.” Mayle, 545
U.S. at 662 (citation omitted).
Nor are the finality concerns cited by the majority
sufficient to justify withholding the benefit of liberal
construction from a pro se petitioner. Ross by no means
seeks a complete reprieve from AEDPA’s filing
deadline, since he indisputably filed his original
petition within the applicable one-year limitations
period. In many cases, moreover, a district court will
have the power to deny leave to file an amendment if it
finds that the petitioner delayed unjustifiably in
preparing that amendment. See Fed. R. Civ. P. 15(a)(2).
Finally, the fact remains that when Ross filed his
original petition, he was proceeding pro se. The
majority is undoubtedly correct that AEDPA’s one-year
deadline was meant to “advance the finality of criminal
convictions.” Majority Op. at 17 (quoting Mayle, 545
U.S. at 662). But this finality interest should not be
advanced on the basis of fairly trivial mistakes made
by prisoners who proceed without the advice of an
attorney.4
4

According to the majority, “Mayle expressly rejected the
argument that a more liberal relation back scheme was necessary
to protect the interests of pro se prisoners.” See Majority Op. at
25–26. True, the Court in Mayle rejected the petitioner’s broad
reading of Civil Rule 15(c) despite the dissent’s observation that
“in the overwhelming majority of cases, the original petition is the
work of a pro se petitioner.” 545 U.S. at 675 (Souter, J., dissenting).
But the rule proposed by the petitioner in Mayle was far broader
than the one advocated here. Moreover, the Mayle Court described

App. 94
*

*

*

When applying a Federal Rule of Civil Procedure in
a habeas case, courts must construe the rule in light of
the basic policies that underlie the habeas framework.
See Mayle, 545 U.S. at 661–663 (interpreting the term
“conduct, transaction, or occurrence” in Civil Rule 15(c)
in light of the policy concerns underlying Habeas Rule
2); see also Habeas Rule 12. But when the application
of that rule involves a pro se filing, courts must also
heed traditional principles of liberal construction. See
Porter, 620 F.3d at 958. In the narrow circumstances
presented by this case, the efficiency and finality
concerns advanced by Habeas Rule 2 carry diminished
force, while the fairness concerns underpinning the
rule of liberal construction are directly implicated.
Thus, Ross’s original pro se petition should have been
liberally construed as setting out—or at least
attempting to set out—the facts stated in the attached
state-court decision for purposes of Civil Rule 15(c),
and the claims in his amended petition should have
been allowed to relate back to the date of his original
petition to the extent that they arose out of those facts.
I respectfully dissent.

the dissent’s concerns as “understandable” and noted that “in [this]
case, counsel was appointed, and had some two and a half months
to amend the petition before AEDPA’s limitation period expired.”
Id. at 664 n. 8. Here, Ross’s counsel was appointed after his
AEDPA deadline had run. By the Mayle Court’s own estimation,
then, Ross’s pro se status should carry greater weight here.

App. 95

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
Case No. 2:14-cv-01527-JCM-PAL
[Filed August, 26, 2016]
___________________________________
RONALD ROSS,
)
Petitioner,
)
)
vs.
)
)
WARDEN WILLIAMS, et al.,
)
Respondents.
)
___________________________________ )
ORDER
Before the court are the first amended petition for
writ of habeas corpus (ECF No. 17), respondents’
motion to dismiss (ECF No. 30), petitioner’s opposition
(ECF No. 36), and respondents’ reply (ECF No. 38). The
court finds that none of the grounds in the first
amended petition relate back to the original, properperson petition (ECF No. 10), and that they all are
untimely. The court also finds in the alternative that
petitioner has not exhausted his state-court remedies
for two of his grounds. The court grants respondents’
motion to dismiss in part. The court will address
respondents’ arguments out of the order that they
present the arguments. First, respondents argue that

App. 96
all of the grounds in the first amended petition are
untimely because they do not relate back to the
original, proper-person petition.
A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run from
the latest of—
(A) the date on which the judgment became final
by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing
an application created by State action in
violation of the Constitution or laws of the
United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right
asserted was initially recognized by the Supreme
Court, if the right has been newly recognized by
the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of
the claim or claims presented could have been
discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1). If the judgment is appealed,
then it becomes final when the Supreme Court of the
United States denies a petition for a writ of certiorari
or when the time to petition for a writ of certiorari
expires. Jimenez v. Quarterman, 555 U.S. 113, 119-20
(2009). See also Sup. Ct. R. 13(1). Any time spent
pursuing a properly filed application for state postconviction review or other collateral review does not

App. 97
count toward this one-year limitation period. 28 U.S.C.
§ 2244(d)(2). The period of limitation resumes when the
post-conviction judgment becomes final upon issuance
of the remittitur. Jefferson v. Budge, 419 F.3d 1013,
1015 n.2 (9th Cir. 2005). A federal habeas corpus
petition does not toll the period of limitation. Duncan
v. Walker, 533 U.S. 167, 181-82 (2001). The petitioner
effectively files a federal petition when he delivers it to
prison officials to be forwarded to the clerk of the court.
Rule 3(d), Rules Governing Section 2254 Cases in the
United States District Courts.
On December 5, 2008, after a jury trial, petitioner
was convicted of two counts of burglary and one count
each of larceny from the person, possession of a credit
card without the cardholder’s consent, fraudulent use
of a credit card, theft, and conspiracy to commit
larceny. Ex. 47 (ECF No. 20-1). Petitioner appealed.
The Nevada Supreme Court issued its order affirming
the judgment of conviction on November 8, 2010. Ex. 53
(ECF No. 20-7). The judgment of conviction became
final when the time to petition for a writ of certiorari
expired, on February 7, 2011, taking into account that
the ninety-day period otherwise would have ended on
a Sunday. Petitioner filed a state habeas corpus
petition, appendix of exhibits, and supporting
memorandum on November 30, 2011, two hundred
ninety-six (296) days later. Ex. 55 (ECF No. 20-9), Ex.
56 (ECF No. 20-10), Ex. 57 (ECF No. 20-11). The state
habeas corpus petition tolled the federal period under
28 U.S.C. § 2244(d)(2). The state district court
appointed counsel, who filed a supplement. Ex. 65
(ECF No. 20-19). The state district court denied the
petition on June 12, 2013, and mailed notice of the

App. 98
denial on June 17, 2013. Ex. 70 (ECF No. 20-24).1
Petitioner appealed. The Nevada Supreme Court issued
its order affirming the denial of the petition on July 22,
2014. Ex. 81 (ECF No. 20-35). Remittitur issued on
August 18, 2014. Ex. 82 (ECF No. 20-36). Tolling
stopped and the one-year period resumed running.
The original petition (ECF No. 10) contains
conflicting dates about when petitioner mailed it to the
court. Petitioner stated at page 1 of the petition that he
mailed the petition on August 14, 2014. However, a few
lines above that statement petitioner stated that the
remittitur issued on August 18, 2014. The dates on the
signature and the verification at the end of the petition
are September 14, 2014. In an attached declaration,
dated September 14, 2014, petitioner refers to other
events that occurred after August 14, 2014. Petitioner
could not have mailed his petition before those events
occurred. The court concludes that petitioner mailed
his petition on September 14, 2014. However, the
original petition still was filed timely. The one-year
period of 28 U.S.C. § 2244(d) expired at the end of
October 27, 2014, taking into account that it otherwise
would have expired on a Sunday. Petitioner filed the
first amended petition (ECF No. 17) on June 8, 2015,
after the one-year period expired. The grounds in the
first amended petition are untimely unless they relate
back to the grounds in the original petition. Relation
back, pursuant to Rule 15(c) of the Federal Rules of
Civil Procedure, is allowed “[s]o long as the original
and amended petitions state claims that are tied to a
1

The cover sheet of this exhibit erroneously states that it is exhibit
71. The listing in the court’s electronic docket is correct.

App. 99
common core of operative facts . . . .” Mayle v. Felix,
545 U.S. 644, 664 (2005).
The claims in the first amended petition cannot
relate back to the original petition by itself. The
original petition contained three repetitive grounds of
ineffective assistance of counsel. In each ground,
petitioner claimed that counsel:
1. Failed to secure a speedy trial;
2. Failed to review evidence prior to trial and
adequately prepare;
3. Failed to file pretrial motions;
4. Failed to address the prejudice of evidence lost
prior to trial;
5. Failed to prepare for jury selection;
6. Failed to prepare for trial;
7. Failed to retain defense experts for trial;
8. Failed to object to the state’s use of expert
witness.
Petition, at 5 (ECF No. 10). Petitioner alleged no facts
in support of those claims. The grounds in the first
amended petition do not share a common core of
operative fact with the grounds in the original petition
because petitioner did not allege any facts in the
original petition.
To overcome that problem, petitioner points to the
decision of the Nevada Supreme Court in the appeal
from the denial of the state habeas corpus petition.
Petitioner attached that decision to his original petition
(ECF No. 10). Petitioner then argues that he
incorporated the Nevada Supreme Court’s decision as

App. 100
grounds in his original petition. The court is not
persuaded.
Petitioner relies upon Dye v. Hofbauer, 546 U.S. 1
(2005) (per curiam). Dye was convicted in Michigan
state court of two counts of murder and one count of
possession of a firearm during commission of a felony.
His state-court appeals were unsuccessful. Dye
pursued federal habeas corpus relief, including a claim
of prosecutorial misconduct. The details are more
complicated than necessary for the purposes of this
order. Ultimately the Sixth Circuit upheld the denial of
habeas corpus relief for two reasons. The Supreme
Court held that both were erroneous. First, the Sixth
Circuit held that the prosecutorial misconduct claim
was not exhausted because the state appellate court
did not mention any federal law in its decision and
because the state-court appellate brief, which
purportedly exhausted the claim, was not in the record.
The Supreme Court held that ruling on exhaustion was
erroneous because the state-court appellate brief was
in the federal district court’s record, and it did present
the claim of prosecutorial misconduct as an issue of
federal law. 546 U.S. at 3-4. Second, the Sixth Circuit
held that the claim of prosecutorial misconduct in the
federal habeas corpus petition was too vague and
general. The Supreme Court held that this ruling was
erroneous because “[t]he habeas corpus petition made
clear and repeated references to an appended
supporting brief, which presented Dye’s federal claim
with more than sufficient particularity.” Id. at 4 (citing
Fed. R. Civ. P. 81(a)(2), 10(c)).

App. 101
The court is not persuaded. The first holding of Dye,
regarding exhaustion, is not applicable to the current
situation before the court, and petitioner does not
argue that it is applicable. The second holding of Dye
could be pertinent, but Dye’s situation and petitioner’s
situation are different. Unlike Dye, the original
petition did not refer at all to the Nevada Supreme
Court’s order, let alone make clear and repeated
references. Each ground contained only the list quoted
above, without any facts. Simply attaching a statecourt order to a petition does not mean that petitioner
is asserting claims based upon that order. Petitioner
needed to allege the claims and the facts in the original
petition itself, or, as in Dye make clear and repeated
references to supporting exhibits. Nothing in the
original petition alerted the court to a desire that
petitioner was trying to make the Nevada Supreme
Court’s rulings part of his claims. Consequently, none
of the grounds in the first amended petition relate back
to the original petition, and they all are untimely.
Petitioner also relies upon Amfac Mortgage Corp. v.
Arizona Mall of Tempe, Inc., 583 F.2d 426 (9th Cir.
1978). The court of appeals noted that documents
attached to a complaint are part of the complaint, and
that a district court may review them, not just the
allegations in the pleading, when determining whether
the plaintiff had failed to state a claim upon which
relief may be granted. Id. at 429-30 (citing Fed. R. Civ.
P. 12(b)(6)). It was the plaintiff in Amfac who was
objecting to the use of the documents attached to the
complaint in the district court’s determination that the
plaintiff had failed to state a claim. The district court
determined, and the court of appeals affirmed, that

App. 102
securities were not involved in the loan transaction at
issue, thus making federal and state securities law
inapplicable, and that the plaintiff had not stated a
claim under state tort law. In other words, the plaintiff
in Amfac did itself no favors when attaching those
documents to the complaint.
The court agrees with respondents that a decision
applying Rule 12(b)(6) to a civil complaint for violation
of securities and tort law is of no utility in a habeas
corpus action. The court does not deny a habeas corpus
petition under Rule 4 of the Rules Governing Section
2254 Cases in the United States District Courts at the
start of a case simply because an attached state-court
order had denied the same grounds on their merits.
Reasonable jurists might debate this conclusion,
and the court will grant a certificate of appealability for
the issue of timeliness.
Respondents also argue that some of the grounds in
the first amended petition are not exhausted. The court
considers respondents’ argument in the alternative to
the untimeliness of the first amended petition.
Before a federal court may consider a petition for a
writ of habeas corpus, the petitioner must exhaust the
remedies available in state court. 28 U.S.C. § 2254(b).
To exhaust a ground for relief, a petitioner must fairly
present that ground to the state’s highest court,
describing the operative facts and legal theory, and
give that court the opportunity to address and resolve
the ground. See Duncan v. Henry, 513 U.S. 364, 365
(1995) (per curiam); Anderson v. Harless, 459 U.S. 4, 6
(1982).

App. 103
Ground 3 is a claim that the evidence was
insufficient to support the verdict. Respondents argue
that any facts beyond those alleged in the direct-appeal
brief are not exhausted. See Ex. 49, at 27-29 (ECF No.
20-3, at 33-35). The court agrees with petitioner that
the additional facts that petitioner presents now do not
fundamentally alter the claim from what petitioner
presented in state court. Ground 3 is exhausted.
Ground 4(C) is a claim that counsel provided
ineffective assistance because counsel did not seek an
appropriate for a discovery violation. In the appeal
from the denial of the state habeas corpus petition,
petitioner argued that counsel failed to obtain a
recording from a security camera. Ex. 79, at 32-34
(ECF No. 20-33, at 38-40). The Nevada Supreme
Court’s decision shows that this is a claim distinct from
what petitioner presents now. The Nevada Supreme
Court held that petitioner did not demonstrate
deficient performance or prejudice because the
recording was destroyed before petitioner was arrested,
let alone before counsel was appointed. Ex. 81, at 2
(ECF No. 20-35, at 3). The claim in the first amended
petition is different, because petitioner argues now that
counsel should have moved to preclude mention of the
destroyed video or for an adverseinference instruction.
The claim has transformed from counsel’s failure to
obtain evidence to counsel’s failure to hold the
prosecution responsible for destruction of evidence.
Ground 4(C) is unexhausted.
Ground 4(D) is a claim that counsel failed to object
to a violation of the best-evidence rule. At trial, Kevin
Hancock and Detective Darrell Flenner testified about

App. 104
what they saw on the securitycamera recording before
it was destroyed. At the preliminary hearing, Deja
Jarmin (also spelled “Jarmon”) testified about what
was on the security-camera recording. Jarmin was
determined to be unavailable to testify at trial, and
Jarmin’s preliminary-hearing testimony was read at
trial. On direct appeal, the Nevada Supreme Court held
that petitioner did not make this objection at trial, and
that the video was lost because none of the employees
at the store knew how to preserve it. This satisfied the
best-evidence rule under a plain-error standard. Ex. 53,
at 2 (ECF No. 20-7, at 3) (citing Nev. Rev. Stat.
§ 52.255(1) and Valdez v. State, 196 P.3d 465, 477
(Nev. 2008)). In the state habeas corpus proceedings,
petitioner made this argument in his appellate brief:
Finally, trial counsel failed to renew his best
evidence objection from the Preliminary Hearing or
to properly challenge the use of a Preliminary
Hearing transcript in lieu of live testimony. Trial
counsel made not [sic] offer of proof regarding
questions he was not able to ask Deja Jarmon at the
preliminary hearing. This was a huge issue as Mr.
Jarmon testified about the contents of a video that
was destroyed before the defense was able to review
it.
Ex. 79, at 36-37 (ECF No. 20-33, at 42-43). The Nevada
Supreme Court ruled first that counsel did not make a
best-evidence objection at the preliminary hearing, and
thus there was no objection to renew. The Nevada
Supreme Court then ruled that the law of the case was
that the best-evidence rule was satisfied and thus no
reasonable probability existed that the trial court

App. 105
would have sustained the objection had counsel made
it. Ex. 81, at 5 (ECF No. 20-35, at 6). The Nevada
Supreme Court’s ruling on this issue did not depend
upon who testified about events depicted on the video
recording. The addition of Hancock and Flenner to the
claim in the first amended petition does not
fundamentally alter the claim. Ground 4(D) is
exhausted.
Ground 4(E) is a claim that counsel failed to object
to the expert testimony of Detective Flenner.
Respondents argue that petitioner never presented
such a claim with respect to Detective Flenner.
Petitioner did present on habeas corpus appeal a claim
that counsel should have objected to the expert
testimony of Detective Rader. Ex. 79, at 35 (ECF No.
20-33, at 41). However, the Nevada Supreme Court
evaluated the claim with respect to Detective Flenner
because the reference to Detective Rader was an error.
Ex. 81, at 3-4 & n.1 (ECF No. 20-35, at 4-5 & n.1). The
Nevada Supreme Court’s treatment of the claim has
exhausted ground 4(E).
Ground 4(G) is a claim that counsel did not object to
Deja Jarmin’s unavailability before Jarmin’s
preliminary-hearing testimony was read at trial. At
some point, Jarmin was believed to be in a hospital,
and the prosecutor stated that they could not confirm
that because of privacy regulations. Ground 4(G) refers
to a federal regulation that allows a hospital to disclose
whether a person, mentioned by name, is in the
hospital. Otherwise, the Nevada Supreme Court ruled
on this claim. Ex. 81, at 4-5 (ECF No. 20-35, at 5-6).
The additional facts do not fundamentally alter the

App. 106
claim that was presented to the state courts. Ground
4(G) is exhausted.
Ground 4(H) is a claim that counsel failed to raise
mitigating arguments against imposition of the
habitual-criminal sentence. The brief on appeal from
the denial of the habeas corpus petition contains a brief
mention that counsel failed to adequately prepare for
sentencing, but petitioner alleged no supporting facts.
Ex. 79, at 26 (ECF No. 20-33, at 32). Petitioner argues
that he clearly intended to incorporate his more
detailed arguments in the memorandum supporting his
state habeas corpus petition. See Ex. 57, at 19-21 (ECF
No. 20-11, at 20-22). The Nevada Supreme Court was
not obligated to read through the record to find
petitioner’s claim. Petitioner needed to present his
argument entirely inside his appellate brief. See
Baldwin v. Reese, 541 U.S. 27, 32 (2004); Castillo v.
McFadden, 399 F.3d 993, 999-1000 (9th Cir. 2005).
Ground 4(H) is not exhausted.
Reasonable jurists would not find the conclusions
regarding exhaustion to be debatable or wrong, and the
court will not issue a certificate of appealability.
Respondents argue that grounds 1, 4(A), 4(B), 4(F),
and 4(H) are conclusory. The court will not address this
argument because the court is dismissing the action as
untimely.
IT IS THEREFORE ORDERED that respondents’
motion to dismiss (ECF No. 30) is GRANTED. This
action is DISMISSED with prejudice because all
grounds in the first amended petition (ECF No. 17) are

App. 107
untimely. The clerk of the court shall enter judgment
accordingly and close this action.
IT IS FURTHER ORDERED that a certificate of
appealability is GRANTED on whether the court was
correct in its determination that the grounds in the
first amended petition (ECF No. 17) do not relate back
to the original petition (ECF No. 10).
DATED: August 26, 2016.
_________________________________
JAMES C. MAHAN
United States District Judge

App. 108

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
Case No. 2:14-cv-01527-JCM-PAL
[Filed August 29, 2016]
_____________________________________
RONALD ROSS,
)
)
Petitioner,
)
)
v.
)
)
WARDEN WILLIAMS, et al
)
)
Respondents.
)
____________________________________ )
JUDGMENT IN A CIVIL CASE
G Jury Verdict. This action came before the Court for
a trial by jury. The issues have been tried and the jury
has rendered its verdict.
} Decision by Court. This action came to trial or
hearing before the Court. The issues have been tried or
heard and a decision has been rendered.
G Notice of Acceptance with Offer of Judgment.
A notice of acceptance with offer of judgment has been
filed in this case.

App. 109
IT IS ORDERED AND ADJUDGED
that Judgment is hereby entered in favor of defendant
against plaintiff Dismissing action pursuant to Order
#39.

August 29, 2016
Date

/s/ Lance S. Wilson
Clerk
/s/ Justin Matott
(By) Deputy Clerk

